<html>
<title> - NOMINATIONS OF MICHELLE K. LEE, NOMINEE TO BE UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL PROPERTY AND DIRECTOR OF THE U.S. PATENT AND TRADEMARK OFFICE; DANIEL HENRY MARTI, NOMINEE TO BE INTELLECTUAL PROPERTY ENFORCEMENT COORDINATOR, EXECUTIVE OFFICE OF THE PRESIDENT; HON. ALFRED H. BENNETT, NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; HON. GEORGE C. HANKS, JR., NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; HON. JOSE ROLANDO OLVERA, JR., NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; AND HON. JILL N. PARRISH, NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE DISTRICT OF UTAH</title>
<body><pre>[Senate Hearing 114-699, Part 1]
[From the U.S. Government Publishing Office]


                                                S. Hrg. 114-699, Part 1

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                 JANUARY 21, MARCH 11, and MAY 6, 2015

                               __________

                           Serial No. J-114-1

                               __________

                                 PART 1

                               __________

         Printed for the use of the Committee on the Judiciary
         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-131 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
         
         

                       COMMITTEE ON THE JUDICIARY

                  CHARLES E. GRASSLEY, Iowa, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont,       
JEFF SESSIONS, Alabama                   Ranking Member
LINDSEY O. GRAHAM, South Carolina    DIANNE FEINSTEIN, California
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
MICHAEL S. LEE, Utah                 RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      SHELDON WHITEHOUSE, Rhode Island
JEFF FLAKE, Arizona                  AMY KLOBUCHAR, Minnesota
DAVID VITTER, Louisiana              AL FRANKEN, Minnesota
DAVID PERDUE, Georgia                CHRISTOPHER A. COONS, Delaware
THOM TILLIS, North Carolina          RICHARD BLUMENTHAL, Connecticut
            Kolan L. Davis, Chief Counsel and Staff Director
      Kristine Lucius, Democratic Chief Counsel and Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                      JANUARY 21, 2015, 2:37 P.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware.......................................................     3
Cornyn, Hon. John, a U.S. Senator from the State of Texas,
    opening statement............................................     1
    introductions of Hon. Alfred H. Bennett, Nominee to be a U.S. 
      District Judge for the Southern District of Texas; Hon. 
      George C. Hanks, Jr., Nominee to be a U.S. District Judge 
      for the Southern District of Texas; and Hon. Jose Rolando 
      Olvera, Jr., Nominee to be a U.S. District Judge for the 
      Southern District of Texas.................................    17
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  introducing Hon. Jill N. Parrish, Nominee to be a U.S. District 
  Judge for the District of Utah.................................    18
Leahy, Hon. Patrick J. Leahy, a U.S. Senator from the State of 
  Vermont,
    prepared statement...........................................   286
Lee, Hon. Michael S., a U.S. Senator from the State of Utah, 
  introducing Hon. Jill N. Parrish, Nominee to be a U.S. District 
  Judge for the District of Utah.................................    19

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................    33
Bennett, Hon. Alfred H., Nominee to be a U.S. District Judge for 
  the Southern District of Texas.................................    20
    questionnaire and biographical information...................    38
Hanks, Hon. George C., Jr., Nominee to be a U.S. District Judge 
  for the Southern District of Texas.............................    21
    questionnaire and biographical information...................   104
Lee, Michelle K., Nominee to be Under Secretary of Commerce for 
  Intellectual Property and Director of the U.S. Patent and 
  Trademark Office...............................................     5
    prepared statement...........................................    34
Marti, Daniel Henry, Nominee to be Intellectual Property 
  Enforcement Coordinator, Executive Office of the President.....     7
    prepared statement...........................................    36
Olvera, Hon. Jose Rolando, Jr., Nominee to be a U.S. District 
  Judge for the Southern District of Texas.......................    22
    questionnaire and biographical information...................   170
Parrish, Hon. Jill N., Nominee to be a U.S. District Judge for 
  the District of Utah...........................................    23
    questionnaire and biographical information...................   223

                               QUESTIONS

Questions submitted to Hon. Alfred H. Bennett by:
    Senator Cruz.................................................   288
    Senator Grassley.............................................   291
Questions submitted to Hon. George C. Hanks, Jr., by:
    Senator Cruz.................................................   288
    Senator Grassley.............................................   293
Questions submitted to Michelle K. Lee by:
    Senator Graham...............................................   290
    Senator Grassley.............................................   295
    Senator Hatch................................................   301
    Senator Vitter...............................................   303
Questions submitted to Daniel Henry Marti by:
    Senator Grassley.............................................   296
    Senator Vitter...............................................   306
Questions submitted to Hon. Jose Rolando Olvera, Jr., by:
    Senator Cruz.................................................   288
    Senator Grassley.............................................   297
Questions submitted to Hon. Jill N. Parrish by:
    Senator Cruz.................................................   288
    Senator Grassley.............................................   299

                                ANSWERS

Responses of Hon. Alfred H. Bennett to questions submitted by:
    Senator Cruz.................................................   307
    Senator Grassley.............................................   312
Responses of Hon. George C. Hanks, Jr., to questions submitted 
  by:
    Senator Cruz.................................................   317
    Senator Grassley.............................................   324
Responses of Michelle K. Lee to questions submitted by:
    Senator Graham...............................................   335
    Senator Grassley.............................................   329
    Senator Hatch................................................   332
    Senator Vitter...............................................   338
Responses of Daniel Henry Marti to questions submitted by:
    Senator Grassley.............................................   345
    Senator Vitter...............................................   347
Responses of Hon. Jose Rolando Olvera, Jr., to questions 
  submitted by:
    Senator Cruz.................................................   349
    Senator Grassley.............................................   354
Responses of Hon. Jill N. Parrish to questions submitted by:
    Senator Cruz.................................................   358
    Senator Grassley.............................................   365

            LETTERS RECEIVED WITH REGARD TO MICHELLE K. LEE

Application Developers Alliance, Washington, DC, December 5, 2014   369
Davies, Susan M., et al., counsel, academics, and executives 
  representing american innovators, November 14, 2014............   370
Honda, Hon. Michael M., a Representative in Congress from the 
  State of California, January 26, 2015..........................   377
Imada, Bill, Founder and Chairman, IW Group, Los Angeles, 
  California, and Former Chairman, Asian/Pacific Islander 
  American Chamber of Commerce and Entrepreneurship (ACE), 
  Washington, DC, December 1, 2014...............................   379
International Trademark Association (INTA), New York, New York, 
  November 5, 2014...............................................   381
National Asian Pacific American Bar Association (NAPABA), 
  Washington, DC, December 1, 2014...............................   382
Samuels, Julie P., Executive Director, Engine, Washington, DC, 
  and San Francisco, California, October 28, 2014................   386
Takayasu, Sach, President and Chief Executive Officer, Asian/
  Pacific Islander American Chamber of Commerce and 
  Entrepreneurship (ACE), Washington, DC, December 1, 2014.......   387

           LETTERS RECEIVED WITH REGARD TO DANIEL HENRY MARTI

American Intellectual Property Law Association (AIPLA), 
  Arlington, Virginia, November 10, 2014.........................   389
Copyright Alliance, Washington, DC, November 14, 2014............   390
CreativeFuture, Los Angeles, California, November 20, 2014.......   392
Entertainment Software Association (ESA), Washington, DC, 
  December 9, 2014...............................................   393
Hispanic Bar Association of the District of Columbia (HBA-DC), 
  Washington, DC, November 10, 2014..............................   394
International AntiCounterfeiting Coalition (IACC), Washington, 
  DC, January 8, 2015............................................   396
International Trademark Association (INTA), New York, New York, 
  November 5, 2014...............................................   397
Motion Picture Association of America, Washington, DC, November 
  7, 2014........................................................   398
National Music Publishers' Association (NMPA), Washington, DC, 
  October 31, 2014...............................................   399
United States Chamber of Commerce, Washington, DC, December 9, 
  2014...........................................................   400

                MISCELLANEOUS SUBMISSION FOR THE RECORD

Abcam, Cambridge, Massachusetts, et al., coalition of American 
  innovators, letter to Hon. Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, U.S. House 
  of Representatives Committee on the Judiciary; Hon. Charles E. 
  Grassley, a U.S. Senator from the State of Iowa, and Chairman, 
  U.S. Senate Committee on the Judiciary; Hon. John Conyers, Jr., 
  a Representative in Congress from the State of Michigan, and 
  Ranking Member, U.S. House of Representatives Committee on the 
  Judiciary; and Hon. Patrick J. Leahy, a U.S. Senator from the 
  State of Vermont, and Ranking Member, U.S. Senate Committee on 
  the Judiciary; January 21, 2015................................   401

                            C O N T E N T S

                              ----------                              

                       MARCH 11, 2015, 10:04 A.M.

                     STATEMENTS OF COMMITTEE MEMBER

Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.   424
    prepared statement...........................................   515

                              INTRODUCERS

Blunt, Hon. Roy, a U.S. Senator from the State of Missouri, 
  introducing Roseann A. Ketchmark, Nominee to be a U.S. District 
  Judge for the Western District of Missouri.....................   421
McCaskill, Hon. Claire, a U.S. Senator from the State of 
  Missouri, introducing Roseann A. Ketchmark, Nominee to be a 
  U.S. District Judge for the Western District of Missouri.......   422

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   433
Ketchmark, Roseann A., Nominee to be a U.S. District Judge for 
  the Western District of Missouri...............................   425
    questionnaire and biographical information...................   434
Stoll, Kara, Nominee to be a U.S. Circuit Judge for the Federal 
  Circuit........................................................   424
    questionnaire and biographical information...................   474

                               QUESTIONS

Questions submitted to Roseann A. Ketchmark by:
    Senator Cruz.................................................   516
    Senator Grassley.............................................   518
    Senator Vitter...............................................   523
Questions submitted to Kara Stoll by:
    Senator Cruz.................................................   516
    Senator Grassley.............................................   520
    Senator Vitter...............................................   523

                                ANSWERS

Responses of Roseann A. Ketchmark to questions submitted by:
    Senator Cruz.................................................   524
    Senator Grassley.............................................   529
    Senator Vitter...............................................   535
Responses of Kara Stoll to questions submitted by:
    Senator Cruz.................................................   538
    Senator Grassley.............................................   545
    Senator Vitter...............................................   551

                            C O N T E N T S

                              ----------                              

                         MAY 6, 2015, 2:18 P.M.

                    STATEMENTS OF COMMITTEE MEMBERS

Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa,
    prepared statement...........................................   763
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York, introducing Lawrence J. Vilardo, Nominee to be a U.S. 
  District Judge for the Western District of New York, and Hon. 
  Ann Donnelly, Nominee to be a U.S. District Judge for the 
  Eastern District of New York...................................   557
Tillis, Hon. Thom, a U.S. Senator from the State of North 
  Carolina.......................................................   555

                              INTRODUCERS

Boxer, Hon. Barbara, a U.S. Senator from the State of California, 
  introducing Hon. Dale A. Drozd, Nominee to be a U.S. District 
  Judge for the Eastern District of California...................   556
Gillibrand, Hon. Kirsten E., a U.S. Senator from the State of New 
  York, introducing LaShann DeArcy Hall, Nominee to be a U.S. 
  District Judge for the Eastern District of New York............   560

                       STATEMENTS OF THE NOMINEES

Witness List.....................................................   573
Donnelly, Hon. Ann, Nominee to be a U.S. District Judge for the 
  Eastern District of New York...................................   562
    questionnaire and biographical information...................   574
Drozd, Hon. Dale A., Nominee to be a U.S. District Judge for the 
  Eastern District of California.................................   561
    questionnaire and biographical information...................   610
Hall, LaShann DeArcy, Nominee to be a U.S. District Judge for the 
  Eastern District of New York...................................   564
    questionnaire and biographical information...................   689
Vilardo, Lawrence J., Nominee to be a U.S. District Judge for the 
  Western District of New York...................................   563
    questionnaire and biographical information...................   716

                               QUESTIONS

Questions submitted to Hon. Ann Donnelly by:
    Senator Grassley.............................................   765
    Senator Vitter...............................................   774
Questions submitted to Hon. Dale A. Drozd by:
    Senator Grassley.............................................   767
    Senator Vitter...............................................   775
Questions submitted to LaShann DeArcy Hall by:
    Senator Grassley.............................................   770
    Senator Vitter...............................................   774
Questions submitted to Lawrence J. Vilardo by:
    Senator Grassley.............................................   772
    Senator Vitter...............................................   774

                                ANSWERS

Responses of Hon. Ann Donnelly to questions submitted by:
    Senator Grassley.............................................   777
    Senator Vitter...............................................   782
Responses of Hon. Dale A. Drozd to questions submitted by:
    Senator Grassley.............................................   785
    Senator Vitter...............................................   791
Responses of LaShann DeArcy Hall to questions submitted by:
    Senator Grassley.............................................   796
    Senator Vitter...............................................   801
Responses of Lawrence J. Vilardo to questions submitted by:
    Senator Grassley.............................................   804
    Senator Vitter...............................................   810

                     ALPHABETICAL LIST OF NOMINEES

Bennett, Hon. Alfred H., Nominee to be a U.S. District Judge for 
  the Southern District of Texas.................................    20
    questionnaire and biographical information...................    38
Donnelly, Hon. Ann, Nominee to be a U.S. District Judge for the 
  Eastern District of New York...................................   562
    questionnaire and biographical information...................   574
Drozd, Hon. Dale A., Nominee to be a U.S. District Judge for the 
  Eastern District of California.................................   561
    questionnaire and biographical information...................   610
Hall, LaShann DeArcy, Nominee to be a U.S. District Judge for the 
  Eastern District of New York...................................   564
    questionnaire and biographical information...................   689
Hanks, Hon. George C., Jr., Nominee to be a U.S. District Judge 
  for the Southern District of Texas.............................    21
    questionnaire and biographical information...................   104
Ketchmark, Roseann A., Nominee to be a U.S. District Judge for 
  the Western District of Missouri...............................   425
    questionnaire and biographical information...................   434
Lee, Michelle K., Nominee to be Under Secretary of Commerce for 
  Intellectual Property and Director of the U.S. Patent and 
  Trademark Office...............................................     5
    prepared statement...........................................    34
Marti, Daniel Henry, Nominee to be Intellectual Property 
  Enforcement Coordinator, Executive Office of the President.....     7
    prepared statement...........................................    36
Olvera, Hon. Jose Rolando, Jr., Nominee to be a U.S. District 
  Judge for the Southern District of Texas.......................    22
    questionnaire and biographical information...................   170
Parrish, Hon. Jill N., Nominee to be a U.S. District Judge for 
  the District of Utah...........................................    23
    questionnaire and biographical information...................   223
Stoll, Kara, Nominee to be a U.S. Circuit Judge for the Federal 
  Circuit........................................................   424
    questionnaire and biographical information...................   474
Vilardo, Lawrence J., Nominee to be a U.S. District Judge for the 
  Western District of New York...................................   563
    questionnaire and biographical information...................   716

 
   NOMINATIONS OF MICHELLE K. LEE, NOMINEE TO BE UNDER SECRETARY OF 
COMMERCE FOR INTELLECTUAL PROPERTY AND DIRECTOR OF THE U.S. PATENT AND 
                 TRADEMARK OFFICE; DANIEL HENRY MARTI,
NOMINEE TO BE INTELLECTUAL PROPERTY ENFORCEMENT COORDINATOR, EXECUTIVE 
 OFFICE OF THE PRESIDENT; HON. ALFRED H. BENNETT, NOMINEE TO BE A U.S. 
   DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; HON. GEORGE C. 
   HANKS, JR., NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE SOUTHERN 
DISTRICT OF TEXAS; HON. JOSE ROLANDO OLVERA, JR., NOMINEE TO BE A U.S. 
  DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; AND HON. JILL N. 
          PARRISH, NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE
                            DISTRICT OF UTAH

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2015

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in
Room SD-226, Dirksen Senate Office Building, Hon. John Cornyn 
presiding.
    Present: Senators Cornyn, Hatch, Lee, Cruz, Perdue, Tillis, 
Franken, and Coons.

             OPENING STATEMENT OF HON. JOHN CORNYN,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. The Senate Judiciary Committee will be 
convened. I apologize for the short delay. We've got a lot 
going on, believe it or not, in other parts of the buildings 
here. This is the first hearing of the Senate Judicial 
Committee in the 114th Congress and I want to express my 
gratitude to Chairman Grassley for allowing me to preside 
today.
    We'll hear from six nominees today, two to the executive 
branch and four to the Federal judiciary. Three of the judicial 
nominees are to fill vacancies in Texas, which may bear some 
coincidental relationship to the fact that I'm presiding today.
    Congratulations to all of the nominees and to your families 
and friends. I know you've traveled a long way to be here 
today.
    I first want to introduce two highly qualified executive 
branch nominees: Michelle Lee, nominated to be the Under 
Secretary of Commerce and Director of the Patent and Trademark 
Office position, and Daniel Marti, nominated to be the 
Intellectual Property Enforcement Coordinator, or IPEC. 
Intellectual property, of course, is a critical part of our 
national economy, helping to encourage innovation that improves 
lives and helps create jobs.
    My State is proud of its role as a national hub of 
creativity and innovation, from NASA in Houston, to the 
thriving, creative hub in Austin, Texas. Innovation is driving 
wages, jobs and quality of life, not just in my State but all 
across this country.
    According to Forbes, in 2014, Texas added tech jobs faster 
than any other State in the Nation. From start-ups in Austin, 
to universities in Dallas, to hospitals in Houston, Texans are 
leading the way, we'd like to think, in intellectual property.
    The Government has a critical role to play, of course, in 
fostering innovation and protecting intellectual property 
rights, including granting patents and enforcing our laws here 
and abroad.
    The President, as I said, has nominated two outstanding 
candidates, and I look forward to hearing them discuss how they 
plan to fulfill their missions. Ms. Lee, the nominee to run the 
PTO, is currently its Deputy Director. Prior to that service 
she was the first director of the Silicon Valley Office. She 
also served on PTO's Patent Public Advisory Committee.
    During her time in private practice, Ms. Lee was the deputy 
general counsel and head of Patents and Patent Strategy at 
Google. Before that, she was a partner at Fenwick & West, a 
Silicon Valley law firm. She holds advanced degrees in 
electrical engineering and computer science from MIT, and a JD 
from Stanford Law School.
    Thomas Jefferson served as one of the Government officials 
first charged with granting patents. As PTO Director, Ms. Lee 
has large shoes to fill and a long and storied history for that 
position.
    Not only will she run a large and expanding agency with 
thousands of employees and offices opening around the country, 
she will continue to implement the 2011 America Invents Act.
    She has told me she will also help tackle some of the 
threats facing our current patent system, in particular abuses 
that have become all too common in patent litigation. Abusive 
patent litigation hampers innovation and harms the economy. 
I've worked for the better part of 2 years, as have many 
Members of this panel, on this critical issue. I look forward 
to moving legislation early this year under the leadership of 
our new Chairman, Chairman Grassley.
    Mr. Marti is nominated to be the Intellectual Property 
Enforcement Coordinator, a position created by Congress in 
2008. The IPEC coordinates intellectual property enforcement 
across the U.S. Government, also working with other countries 
and the private sector. They address complex problems such as 
online IP theft. Well over a year ago, both Democrats and 
Republicans urged President Obama to fill this position, which 
has been vacant for more than a year.
    Mr. Marti is the managing partner at the DC office of 
Kilpatrick, Townsend & Stockton, where he focuses on 
intellectual property matters. Among his many honors, Mr. Marti 
was recognized as a super lawyer for intellectual property in 
Washington, DC in 2013 and 2014. He earned his bachelor's 
degree at Georgetown University and his JD at Emory University 
School of Law.
    Let me congratulate both Ms. Lee and Mr. Marti on your 
nominations. You both have, as I said, very strong 
qualifications and years of impressive experience.
    In December, Chairman Grassley put the nominees, the 
Members of this Committee, and the public on notice that there 
would be a second hearing so it would allow new Members a 
meaningful opportunity to hear both of these nominees.
    I see we are joined by at least two of those new Members, 
Senator Perdue and Senator Tillis. I think it's important, and 
agree with Senator Grassley, that it was important to give 
these new Members a chance to participate in this important 
nomination process.
    Let me ask both of the witnesses, please, to stand and be 
sworn at this time. If you'll raise your right hand.
    [Witnesses are sworn in.]
    Senator Cornyn. Thank you. Please have a seat.
    I would invite both of you, perhaps starting with Ms. Lee, 
to introduce your family and any guests that you'd like to 
introduce to the Committee, and then to make an opening 
statement. So first, Ms. Lee, and then Mr. Marti.
    Ms. Lee. Thank you, Mr. Chairman. I have the honor to 
introduce to the Committee my husband, Christopher Shen, and 
our 4-year-old daughter, Amanda Mavis.
    Mr. Marti. Thank you, Senator Cornyn. I also have the honor 
to introduce my wife, Lauren, who's sitting behind me. When we 
were here on December 10th, I had a large group of family 
members, including a six- and nine-year-old join us. They asked 
to go to school today instead.
    [Laughter.]
    Senator Cornyn. I'm sure it's second only to going to the 
dentist to have a root canal, coming to the Judiciary Committee 
for another hearing. Forgive me. I wanted to turn to Senator 
Coons, the Ranking Member on the Committee for purposes of this 
hearing, before we'll turn it to both of you for your opening 
statements.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS,
           A U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Coons. Thank you, Senator Cornyn. Thank you for 
chairing this hearing, and thank you to both of our highly 
qualified nominees for coming again before this Committee so 
that new Members of the Committee can also engage in a robust 
discussion with you about the roles to which you've been 
nominated and the importance of intellectual property.
    The right of inventors to profit from their inventions has 
been a bedrock principle of this country and has succeeded, 
perhaps beyond the wildest dreams of our Founding Fathers.
    What innovators are doing today with their inventions and 
ideas in this Nation, backed by a strong core of IP 
protections, is unmatched in the world. From lifesaving cures, 
to new materials, to solutions to problems, to creative works, 
it is unmatched.
    We also cannot take it for granted. In 2010, IP-intensive 
industries generated 27 million jobs, with another 13 million 
indirectly related. Combined, we're talking about 40 percent of 
the American economy. On average, IP-intensive companies pay 30 
percent more than other private-sector companies. IP is 
important to our economy.
    As important as they are, though, they are vitally 
important to the small inventor. Whether they're a garage 
inventor, an aspiring new creator or entrepreneur who's found a 
secret sauce, these are the people, the men and women of small 
business across America, who will create the next generation of 
products, of foods, of services that we will love or the 
medicines we need to live.
    There's a popular show that I watch with my kids called 
``Shark Tank''--it might be known to some of you--where hopeful 
entrepreneurs pitch their products and services to these so-
called sharks, the investors, who ask great and focused 
questions.
    More often than not, they ask a decisive question: How are 
you going to make it in a market with so many other big 
competitors who can crush you like a bug or steal your idea? 
And when the inventor proudly boasts, I have a patent, it tends 
to make all the difference. According to a Department of 
Commerce 2010 report, three-fourths of start-up managers who 
are venture capitalists consider patents when making investment 
and funding decisions.
    My point is simply this: If we fail to uphold and 
strengthen our strong tradition of IP protection in this 
country, the benefits of American ingenuity will flow out of 
this country and to our competitors. So to those who say that 
we have too many abuses and we need to make fundamental changes 
to our patent system, I agree, we need to find a way, working 
together, to clamp down on abuses.
    But I also urge a little caution as we consider any 
changes. There is always a momentary benefit to opening up and 
making free to the world things previously protected, but there 
can be long-term costs as well. Proposals to dramatically 
constrain the rights of patentees to enforce their patents also 
ignore the fact that the patent system these two nominees will 
be entrusted to administer and coordinator enforcement for has 
already greatly changed from the system just 4 years ago.
    In the past year, the district courts, the Federal circuit, 
and the Supreme Court have all responded to the call for more 
efficient resolution of patent cases. I am greatly appreciative 
of hours dedicated to a patent study group created by two 
esteemed members of the Delaware bench, Judge Stark and Judge 
Robinson, who hear a tremendous number of patent cases. 
Following meetings with representatives across the patent 
community, they've issued new case management guidelines, 
reducing costs and improving speed.
    The Supreme Court's decisions in Alice and Octane Fitness 
have already had a dramatic impact, a 40 percent reduction in 
patent filings in the year from September 2013 to 2014. At the 
same time, the impact of the Leahy-Smith America Invents Act is 
just beginning to register. Inter partes review has been 
granted in over 70 percent of cases, resulting in expedited 
decisions.
    Last, we will soon learn the impact of the covered business 
method program, which may also provide some helpful insight in 
a path forward.
    I would like at this time, if I might, to ask consent to 
introduce into the record Senator Leahy's opening statement and 
a letter from a broad coalition of American innovators and 
companies making just this point.
    Senator Cornyn. Without objection.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    [The information appears as a submission for the record.]
    Senator Coons. I'd like to close by applauding the Federal 
Trade Commission for their great work and saying that I think 
we can find ways to work together to fully fund the PTO, to 
protect trade secrets, and to move forward on patent reform in 
ways that do not harm or undermine the system.
    Thank you, Senator Cornyn.
    Senator Cornyn. Thank you, Senator Coons.
    Without objection, the statement of Senator Grassley, the 
Chairman, will be made part of the record as well.
    Senator Cornyn. Ms. Lee, we'll turn to you for any opening 
remarks you'd care to make.

STATEMENT OF MICHELLE K. LEE, NOMINEE TO BE UNDER SECRETARY OF 
  COMMERCE FOR INTELLECTUAL PROPERTY AND DIRECTOR OF THE U.S. 
                      PATENT AND TRADEMARK
                             OFFICE

    Ms. Lee. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Committee, it is an honor 
to be before you today. I'm grateful to President Obama for 
nominating me for this important position and to Secretary 
Pritzker for her ongoing support, past and present.
    With me here today are my husband, Christopher Shen, and 
Amanda Mavis, our 4-year-old daughter. I was born and raised in 
the Silicon Valley, the daughter of an immigrant family that 
settled in a place that turned out to be one of the most 
innovative regions in the country, if not the world.
    My father was an electrical engineer. We spent our weekends 
tinkering and working together to build or fix things like the 
Heath kit hand-held radio. In fact, all the dads on the street 
that I grew up on were engineers, innovators in the truest 
sense of the word.
    It was not uncommon for them to work for companies founded 
by a person with a clever idea who patented the invention, who 
then obtained venture capital funding to build a company to 
bring that technology to the marketplace.
    Some of the companies succeeded and some did not, but for 
those that did they created high-paying jobs for families like 
mine, and in some cases new products and services that 
revolutionized the world and the way in which we live.
    Seeing this process up close and personal left a lasting 
impression on me while I was growing up. I wanted to contribute 
and to enable others to contribute to innovation. It is why I 
studied electrical engineering and computer science, and later 
intellectual property law, with the goal of representing 
innovative companies.
    While working at MIT's Artificial Intelligence Laboratory 
and HP's research laboratory as a computer programmer, I 
witnessed innovation at its inception. It was an exciting 
experience I'll never forget and one that still informs my work 
to this day.
    Later as an attorney, I worked on patents and patent 
strategy for a then-small company that grew into a Fortune 500 
corporation in the span of eight short years. Along the way, we 
built the company's patent portfolio from a few handfuls of 
U.S. patents to over 10,500 patents worldwide, and in the 
process I became acquainted with the many important services 
provided by the U.S. Patent and Trademark Office.
    Through my experiences as in-house corporate counsel, and 
before that as a partner at a Silicon Valley law firm, I 
represented a wide range of innovators, from independent 
inventors to Fortune 500 companies. I came to understand and 
practiced many areas of intellectual property law and almost 
every aspect of patent law, including writing patents, 
asserting patents, defending against patent infringement, and 
licensing, buying, and selling patents.
    I understand and appreciate from a business perspective the 
important value and uses of intellectual property for 
innovators and for our economy. During the past 3 years through 
my service on the U.S. PTO's Patent Public Advisory Committee, 
then as the agency's first Silicon Valley satellite office 
director, and now as Deputy Director, I have worked with a wide 
range of industries while gaining a first-hand understanding of 
the U.S. PTO, its strengths, challenges, potential and 
opportunities.
    I have seen and worked with an impressive talent of the 
dedicated U.S. PTO team. It is clear to me how the U.S. PTO's 
work benefits our Nation's innovators. I believe that the U.S. 
PTO must remain focused on reducing the backlog and pendency of 
its patent applications while maintaining the highest level of 
quality of patents and trademark examination.
    Given the increasingly global economy it is also imperative 
that American companies have efficient, cost-effective, and 
strong intellectual property protections overseas. In my 
current role, I have the privilege of working on many of these 
initiatives and, if confirmed, would continue to work on these 
important goals.
    Finally, as with any large organization, I appreciate the 
need to both effectively manage and motivate the U.S. PTO work 
force. This is especially true of an organization that has more 
than doubled in size in the last 10 years in order to keep up 
with our Nation's innovation.
    I believe that the intellectual property laws and the U.S. 
PTO play a critical role in advancing American technological 
competitiveness which is so necessary for our Nation's 
continued economic success. If confirmed by the Senate, I 
commit to bring to bear all my creativity, energy, and 
intellect to protect and strengthen the intellectual property 
system that has served our country so well. Thank you.
    Senator Cornyn. Thank you, Ms. Lee.
    Mr. Marti, your statement, please.

         STATEMENT OF DANIEL HENRY MARTI, NOMINEE TO BE
INTELLECTUAL PROPERTY ENFORCEMENT COORDINATOR, EXECUTIVE OFFICE 
                        OF THE PRESIDENT

    Mr. Marti. Thank you, Chairman, and distinguished Members 
of this Committee. I am honored to have the opportunity to be 
considered by this Committee as the President's nominee to 
serve as the administration's Intellectual Property Enforcement 
Coordinator, or IPEC. I would like to thank the President for 
his confidence in my ability to serve in this important post, 
and I thank Victoria Spinell for her remarkable leadership and 
service during her time as the first IP Enforcement 
Coordinator.
    This opportunity to serve my country is truly humbling. As 
many of you may recall from my last hearing a few weeks ago, I 
am a first generation American, born in Washington, DC, of 
Spanish and Chilean parents who came to this country speaking 
little English. My father, Enrique, chose to leave the seminary 
in Germany where he was studying to be a Jesuit priest so he 
could teach philosophy at a university in Washington, DC.
    My mother, Patricia, has dedicated her life to making sure 
that my two sisters and I had the chance to follow our 
educational and professional pursuits wherever they would lead. 
Their sacrifices have allowed me to be here before this 
distinguished Committee today, and for that I am immensely 
grateful.
    I would also like to thank my family, including my 
daughter, Elissa, and my son, Miles, and my wife, Lauren, who 
is here today, for her love and support.
    I currently serve as a managing partner of the Washington, 
DC, office of Kilpatrick, Townsend & Stockton, which has one of 
the largest IP practices of any law firm in the United States. 
I have devoted the entirety of my professional practice to 
matters concerning intellectual property enforcement.
    My clients included companies in the fields of technology, 
banking, consumer products, entertainment, media and sports, 
fashion and luxury goods, hospitality, food, beverage, and 
agriculture, to name a few. Through these, and other client 
representation, I have developed a deep and broad view of IP 
rights and IP policy.
    If confirmed, I will work to achieve a thoughtful and 
strong intellectual property system that encourages innovation, 
creativity, and fair competition based on the rule of law. An 
effective intellectual property enforcement strategy must 
consist of a comprehensive and multi-faceted approach to this 
dynamic issue. An IP strategy should, for example, involve: 
sustained coordination among Federal agencies and enhanced 
sharing of information; focused diplomatic efforts, including 
engagement with trading partners; the use of trade policy tools 
and IP-related training and capacity building; private sector 
voluntary best practices to reduce infringement online and in 
conventional marketplaces; the adoption of technological 
solutions; consideration of new laws and regulations to the 
extent necessary to protect IP; and public awareness, 
education, and outreach.
    I will work to promote our ongoing efforts to protect IP 
from unlawful infringement, both at home and abroad. These 
efforts will involve a broad range of stakeholders, including 
Congress, Federal agencies, the private sector, and public 
interest groups. Each of these stakeholders and the views and 
positions they represent will be key resources for me in 
pursuing the goals of my office.
    America's great spirit of innovation and creativity has 
been a primary driver of our economic growth and national 
competitiveness. IP intensive industries represent a 
substantial portion of our Gross Domestic Product and support 
millions of jobs.
    IP is also critical to our balance of trade. Goods from IP 
intensive industries account for approximately 60 percent of 
all U.S. merchandise exports and about 20 percent of service 
exports. These figures are a point of national pride and we 
must continue to build and invest in an IP system that will 
continue to promote the growth of the American economy.
    Congress, and Members of this Committee in particular, had 
the vision to create the IPEC position in order to elevate the 
coordination of IP enforcement issues across the United States, 
and indeed, internationally.
    If confirmed, I look forward to building on the success and 
the momentum of the office. Thank you again for the opportunity 
to appear before you, and I look forward to answering your 
questions.
    Senator Cornyn. Thank you, Mr. Marti.
    We will proceed now with 5-minute rounds, alternating 
between the Republicans--the Majority and Minority, and we will 
observe the early bird rule.
    Ms. Lee, in 2013, the House passed the Innovation Act, 
which the administration, as you know, supported. This past 
December, you testified about the continuing need to strengthen 
the patent system, including legislation aimed at patent 
abuses. Is that still your position? Here's the context for 
that. Of course, Senator Coons alluded to the fact that there's 
been ongoing decisions by Federal courts in this area. The 
basic question is, does that obviate, in your view, the need 
for Congress to act in this area?
    Ms. Lee. Thank you, Mr. Chairman, for that very important 
question. Yes, I believe that there can, and should, be 
additional improvements to our legislation--to our patent 
system through legislation. Much has already occurred in recent 
years to strengthen our patent system, but certainly more can 
be done legislatively, judicially, and administratively.
    The Patent Office is already working on many of these 
issues, including enhancing the quality of patents and working 
on a number of White House administrative actions. But the 
President has stated a need to pass additional legislative 
reform, and I support that. I look forward to seeing further 
reforms and working together with Congress and all of our 
stakeholders to strike meaningful and balanced improvements to 
our patent system that promote innovation.
    Senator Cornyn. Well, at a time when there's a lot of 
differences between the political parties here in Washington, 
this seems to me to be one area, certainly among others, where 
the White House, where Republicans and Democrats, all agree we 
need to pass legislation, and I look forward to working to that 
end with my colleagues here first at the Judiciary Committee, 
then on the floor.
    You testified in December about the popularity of post-
grant proceedings and called for Congress--well, you called 
them a cost-effective, faster method of resolving the issue of 
patent validity. I know you, as I'm sure you know, my office 
has heard concerns from a number of stakeholders about these 
proceedings.
    Can you tell us about what you're hearing and your view of 
the criticisms, and are there reforms to post-grant proceedings 
you think that need to be made?
    Ms. Lee. So thank you very much, Mr. Chairman. I've given a 
lot of thought to this topic, and in fact after I was sworn in 
as Deputy Director one of the first initiatives that I 
undertook at the PTO was to ask my team to embark upon a 
nationwide listening tour to evaluate these patent trial and 
appeal board proceedings. Those proceedings had been in effect 
for about a year and a half, and we had some experience under 
our belt. The public was very eager to hear about best 
practices when they appear before us and some of the rules and 
procedures, and the agency, and I personally, was very eager to 
hear what the public's reaction and feedback was on these 
proceedings and how we could improve them. So in April and May 
we conducted an eight-city nationwide listening tour and we've 
heard a lot of feedback. Those were very, very well-attended 
programs.
    We also, at the end of the eight-city road show, put forth 
a request for comments. We put forth 17 different questions on 
all ranges of procedures and aspects of these patent trial and 
appeal board proceedings, and we also had a catch-all 
provision, which is, tell us anything and everything else you'd 
like to know on how we can improve these proceedings. We got a 
lot of input.
    The deadline was extended to October and we got 37 written 
comments from bar associations, companies, and individuals. 
Some of the comments were very positive, some of them suggested 
room for improvement. The PTO is in the process of evaluating 
those comments very carefully.
    Senator, if confirmed, I very much look forward to 
reviewing those comments and making the proceedings of the 
patent trial and appeal board even more effective, as Members 
of Congress intended when they passed that legislation in the 
America Invents Act.
    Senator Cornyn. Thank you.
    Mr. Marti, what do you see as the biggest IP enforcement 
challenges that confront us?
    Mr. Marti. Thank you, Senator. The threats to U.S. IP 
interests are immense and growing in both size and scope. The 
global nature of IP infringement is certainly an issue that has 
proven difficult to tackle. Certainly what we have been seeing 
in the news lately with cyber attacks that are sponsored by 
foreign governments also adds a level of complexity to our 
efforts to enforce U.S. intellectual property, the example I 
mentioned, trade secrets in particular.
    Senator Cornyn. And indeed, the President alluded to that 
last night in his State of the Union and has spoken often, in 
light of the hacking of Sony recently in the news and the 
concerns about cyber security and intellectual property theft. 
This is a role that IPEC will play front and center, is it not?
    Mr. Marti. Yes. If confirmed, I intend to tackle this issue 
directly and I look forward to the opportunity to work with 
Congress, the administration, and other relevant stakeholders 
to address this issue.
    Senator Cornyn. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Senator Cornyn.
    If I might just first, Mr. Marti, to follow up briefly on 
that point. To combat trade secret theft and misappropriation, 
do you think either civil remedies or criminal remedies are 
alone sufficient or could we benefit from having a broader tool 
kit of remedies?
    Mr. Marti. The effective--an effective IP strategy has to 
be a multi-faceted approach. So yes, generally I would support 
a larger tool kit. I think having U.S. law to address the issue 
of trade secret misappropriation at the Federal level would be 
important, important here domestically but also to show as a 
model or to use as a model, for example, in trade agreements, 
in bilateral and multilateral treaties, or to press individual 
countries to adopt similar laws so that the domestic and 
foreign IP will have a place to be protected overseas.
    Senator Coons. I agree, and I hope we can make some great 
progress on that this year.
    Ms. Lee, if I might, you talked about the patent trial and 
appeal boards and concerns about the process and outcomes in 
the broader community. In your view, why is the board finding 
that there is a reasonable likelihood so many patents granted 
by the PTO initially contained unpatentable claims?
    Ms. Lee. So, Senator, I think the--I mean, the board takes 
a look at these matters on a case-by-case basis. I think 
probably what you're seeing is these are new proceedings and 
Congress very much intended for these proceedings to eliminate 
patents that should not have issued out of the U.S. Patent and 
Trademark Office.
    So I think probably what you're seeing is some of the 
initial reaction to that. We are aware of the statistics but it 
does not guide the work of the Patent and Trademark Office. I 
mean, we call the judges on those panels, a three-judge panel, 
look at the facts of the case, look at the record before them, 
apply the facts and the case law and come to their conclusions.
    And you've hired more than 200 administrative law judges in 
the last year alone. You have ramped up this process really 
very quickly. What I am pointing toward is the possible concern 
either that some of the ALJs need more relevant training and 
experience, the rules of the road need to be fleshed out a 
little bit further since this is largely new ground, or that 
there may have been an improvident grant in the first place.
    So let me just turn to a last question, if I might, about 
stakeholder confidence in the system and the importance of 
patents when initially granted being as high-quality as 
possible to reduce litigation cost and risk and the challenges 
of post-grant review.
    What are your plans, if confirmed, to ensure that patent 
quality is strengthened significantly in the first place upon 
initial issuance?
    Ms. Lee. Thank you very much, Senator Coons, for that 
question. One of the top priorities, if confirmed, would be to 
really enhance the quality of the patents at issue out of the 
U.S. Patent and Trademark Office. We are at a very fortunate 
time.
    I mean, thanks to the good work of Congress and the America 
Invents Act, you gave us fee-setting authorities, that we could 
set our fees. Now, working with the appropriators, for the most 
part we have been able to keep most of the fees that we 
collect, provided they fall within our estimated amount.
    So really for the first time in a very, very long time we 
are in a much more secure financial situation to take a very, 
very deep look at patent quality, and that is so very 
important.
    I mean, we are hearing it from our stakeholders, we hear it 
from Members of Congress, and it is really the PTO's obligation 
to issue the very best quality patents that they can at time of 
examination. But, of course, we all know we have a certain 
period of time these patents need to issue, and over time, you 
know, oftentimes the marketplace determines which patents are 
the most important.
    In those instances, if it is warranted to have a second 
look at the patent to determine if it was properly granted, 
that's why we have some of the post-grant review proceedings 
and that is also important to make sure that we ensure that 
those proceedings are fair to all parties.
    Senator Coons. Thank you. As you know, I share your passion 
for ending fee diversion and ensuring the sustainability of PTO 
funding.
    My last question. In your December confirmation you 
acknowledged that the legal landscape around patents is quite 
dynamic. There's been a lot of changes, Supreme Court 
decisions, judicially directed changes, the ongoing 
implementation of the AIA. Do you still agree that Congress 
should act carefully and cautiously before enacting additional 
legislative changes to our patent system?
    Ms. Lee. I do believe that we still need legislative 
reform. As I, in response to Senator Cornyn's question--I mean, 
there are certain things that are absolutely appropriate and 
best handled by this body. There are other matters that can be 
handled by the PTO. Enhancing the quality of patents before 
they issue out of the office, that is clearly within our domain 
and that's something that I intend to focus on very 
concertedly, but there is a role and there is a need for 
additional legislation.
    Senator Coons. Thank you, Ms. Lee. Thank you, Mr. Marti.
    Senator Cornyn. Senator Hatch.
    Senator Hatch. As Chairman of the Senate Republican High-
Tech Task Force, I've been working with colleagues and 
stakeholders to develop an innovation agenda for the 114th 
Congress. Among my top legislative intellectual property 
priorities are patent control and trade secrets legislation, 
which as you know are critical to the continued success of the 
high tech industry.
    My time is limited, so I would like to ask both of you to 
answer as quickly and shortly as you can. Mr. Marti, we must 
remain vigilant in protecting our Nation's critical 
infrastructure from cyber attacks. Equally important is 
preventing trade secret theft, which costs U.S. companies, and 
some in Utah, hundreds of millions of dollars each year in lost 
profits and sales. What are your plans to address trade secret 
theft?
    Mr. Marti. Thank you, Senator Hatch. Throughout my private 
sector experience I've worked with U.S. businesses to protect 
their trade secrets and I fully appreciate what is at stake. I 
am concerned that the pace of economic espionage and trade 
secret theft through cyber hacking, for example, appears to be 
accelerating.
    It is essential that the IPEC office has a confirmed head 
at this important time, and if confirmed to run this office, I 
can assure you that I look forward to tackling this serious 
issue of trade secret misappropriation with you, and other 
Members of this Committee, to ensure that U.S. businesses' 
trade secrets remain safe and that the U.S. economy can 
continue to prosper.
    Senator Hatch. How should Congress actually proceed in 
tackling trade secret theft by overseeing the whole valley of 
all these things and by foreign actors who are intentionally 
outside the jurisdiction of U.S. courts? How do we proceed in 
tackling those trade secret thefts?
    Mr. Marti. Senator, where the bad actor is outside U.S. 
jurisdiction, an issue that I've had to deal with repeatedly 
throughout my career, I believe the U.S. industry could 
strongly benefit from having Federal trade secret law in place 
that, as I mentioned to Senator Coons, can serve as a model in 
our trading, in our trade agreements, and pressing foreign 
governments to pass similar legislation that would protect not 
only their own domestic trade secrets, but U.S. trade secrets 
overseas.
    Senator Hatch. Okay. Ms. Lee, Section 285 of the Patent Act 
was Congress' attempt to deter bad behavior in patent 
litigation. ``Yes'' or ``no,'' do you agree that Section 285 
has failed to achieve its objective?
    Ms. Lee. Section 285, Senator, as I understand, pertains to 
the fee shifting and the payment of attorneys' fees. I think 
the statute alone is probably not enough. As we can see, there 
are judicial changes that are under way and being considered. 
And I know in the 113th Congress it was a topic of very 
important discussion, and I think going forward it would be 
beneficial and helpful to consider those issues, along with all 
others, and weigh all factors as we determine what is 
appropriate for impactful and balanced patent improvements.
    Senator Hatch. ``Yes'' or ``no,'' do you believe that 
Section 285 needs to be amended in order to deter abusive and 
meritless litigation?
    Ms. Lee. I think considering the amendment of 285 is a 
topic that needs to be discussed and needs to be considered 
with our stakeholders in light of all the changes that are 
occurring to make sure we get it just right and we incentivize 
our innovative companies to invent, yet we also allow patent 
rights holders to have the ability to enforce their rights when 
they need to, when they have legitimate patent rights.
    Senator Hatch. Can you give me a ``yes'' or ``no'' answer 
whether you agree the Supreme Court's cases in Highmark and 
Octane Fitness do nothing to ensure the recovery of fee awards 
from insolvent shell corporations?
    Ms. Lee. So I think we're still evaluating the impact.
    Senator Hatch. Do you think they do anything?
    Ms. Lee. It increases the discretion for district courts to 
award attorneys' fees and we'll have to evaluate. I would very 
much welcome working with Members of Congress and listening to 
our stakeholders if that's enough.
    Senator Hatch. Well, what are your plans to ensure that 
employees who are working at home are skillfully examining 
patent applications? For me, this shouldn't be a numbers game. 
The focus should be on properly issued, high-quality patents.
    Ms. Lee. Yes. So thank you very much, Senator, for the 
question. I take it you're referring to some of the time and 
attendance issues that the U.S. Patent and Trademark Office has 
been dealing with and addressing in the past.
    Let me just say that my senior management team and I take 
any kind of time and attendance abuse very seriously, but we 
have taken a whole bunch of initiatives since some of those 
matters came to our attention to make sure that all of you and 
the members of the public have complete confidence in our 
operations.
    We've done things like train our examiners on the time and 
attendance rules, we've brought in the National Academy for 
Public Administration to review all of our procedures and 
policies and controls. I look forward to receiving a copy of 
that report on recommendations and best practice and I look 
forward to sharing that with Members of Congress. I believe you 
will also get a copy.
    We have also established cross-bureau business unit 
programs where we're looking at preventing abuse and 
intervening early and reviewing the entire employee discipline 
process so that we can make sure that we're applying the 
processes and the rules consistently. So we've done a lot and I 
look forward to doing much more, if confirmed.
    Senator Hatch. Thank you, Mr. Chairman. Thank you.
    Senator Cornyn. Thank you, Senator Hatch. I would advise my 
colleagues, we have been informed that we will shortly have a 
series of seven votes on the floor of the Senate, which 
obviously is an interruption of what we're trying to do here.
    My goal would be to see if we could move through this first 
panel and then save the second--adjourn, or recess, I should 
say, and then come back to the second panel of nominees. 
Certainly any Senator is free to stay as long as they want 
without missing votes, but consider possibly submitting 
questions in writing that would be then responded to later.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Ms. Lee, congratulations on your nomination. Last year, the 
Supreme Court issued a number of patent-related rulings. Those 
decisions, including the Court's decision of Alice Corporation 
v. CLS Bank, seemed to tighten the requirements for obtaining 
certain patents and made it somewhat easier for people to 
challenge the validity of patents.
    At the same time, we have seen reports of a drop in the 
number of new lawsuits being filed by patent holders for 
infringement. Some commentators have suggested that this drop 
in filings is, at least, in part, responsive to the Courts' 
decisions.
    Based on your experience at PTO, do you think that's true? 
What other factors may be contributing, and to what extent, if 
any, do you see these developments helping Main Street 
retailers affected by abusive litigation practices?
    Ms. Lee. So, thank you very much, Senator, for your 
question. Alice v. CLS Bank came down fairly recently, so we 
are all--I think all of us, the courts included, are in the 
process of evaluating that. The U.S. PTO--I mean, our job is to 
apply the laws as enacted by a Congress and as interpreted by 
the courts. And I think, as you know, we issued guidance 
recently on patent-eligible subject matter. As we speak now we 
are having a stakeholder outreach session to get input on the 
guidance that we've provided.
    You know, as far as what effects the filings at the Patent 
and Trademark Office, there are so many variables. I mean, many 
of them are macroeconomic; it depends upon the economy, it 
depends upon business incentives. In the business world--I 
know, I was on the other side--it depends upon business 
strategies, and part of it depends upon the laws and the PTO 
guidance that we issue.
    I guess I would say that, if confirmed as director, it 
would be my job to make sure we issue as clear of guidance as 
we can on issues like patent-eligible subject matter so that 
our examiners know exactly how to examine these applications to 
the best that we can, faithfully applying the law, and the 
public also has some concrete guidance as well so that they can 
make really smart business decisions and allocate their 
precious R&D dollars and precious legal budgets, as 
appropriate.
    Senator Franken. So you do not have an opinion one way or 
the other on the effects of court decisions, recent court 
decisions, on the slow-down of these filings?
    Ms. Lee. We've seen slight slow-downs but it's hard to--I 
mean, there's so many factors involved. Part of it could be 
Alice Corp. v. CLS Bank, but that was relatively recently 
enacted--or, you know, handed down from the courts. A lot of it 
can also be macroeconomic issues.
    Senator Franken. Okay.
    Ms. Lee. But it's something that I know our folks at the 
CFO's office at the PTO are monitoring closely and our patents 
team are monitoring very carefully.
    Senator Franken. Okay. I'll go from a very specific 
question to something more general. One of the reasons that has 
been cited for supporting your nomination is the work that you 
have done as Deputy Director of the U.S. PTO to address 
problems of patent trolls. Would you explain how you define a 
patent troll as distinct from a legitimate patent holder 
needing to enforce his or her rights?
    Ms. Lee. I think many people have many different 
definitions of what a patent troll is. What I find most 
productive is to focus on the behavior and curtailing abusive 
patent litigation. If the abusive patent litigation occurs from 
an operating company, that is unacceptable behavior and that 
should be curtailed. If it occurs from a non-practicing entity 
of any sort and it is abusive, that sort of behavior should be 
curtailed.
    Senator Cornyn. Colleagues, the votes have begun.
    Senator Franken. Well, thank you very much. I will go vote.
    Senator Cornyn. Senator Perdue.
    We are going to try to give Senator Perdue and Senator 
Tillis a chance to ask their questions before they have to 
leave to vote.
    Senator Perdue. I'll be very brief then. Thank you, Mr. 
Chairman.
    Congratulations to both of you on your nominations. You 
know, our economic miracle is fundamentally founded on three 
capabilities that we have in the United States: our ability to 
innovate; our ability to form capital; and our rule of law. The 
rule of law really helps us protect individual property rights.
    Ms. Lee, I'd love for you to talk a little bit more about 
finding the balance. You have spoken often about these two 
competing issues, abusive litigation practices and the rights 
of legitimate patent holders. What do you plan to do as a 
Director of PTO, and what can we do as a legislative body to 
help you find that balance?
    Ms. Lee. So that's a topic that I give a lot of thought to, 
Senator Perdue. Coming from the business world, I understand 
the very fragile and delicate balance. It is absolutely right 
to strike that right balance. It is not a single point, but it 
is probably a range.
    I think we just all need to work together and we need to 
put the interests of the overall patent system ahead of 
personal interests, you know, companies and individuals, what 
is right for the patent system not just for me now and today, 
but what is right for our patent system, what is right for this 
country now and in the long run so that we continue to maintain 
the strongest economy of innovation incentivized by 
intellectual property.
    I gave a speech on this and it is something that I feel 
very, very deeply about. I am a beneficiary of our economic 
innovation economy and it is something that I hope my daughter 
has the benefit of having in her generation and subsequent 
generations. So I would ask that all of our stakeholders, and 
all of us, to work together to strike that right balance.
    Senator Perdue. Thank you.
    Mr. Marti, you've spoken often, I think even in your 
December 10 testimony, about how volunteer initiatives are 
really critical in finding the balance of combatting piracy and 
fraudulent practices. You have also talked about coordination 
of all the stakeholders.
    Can you tell us, briefly, a little bit about the steps that 
the IPEC is taking, and can take, in this area and what 
additional work you think is required?
    Mr. Marti. Thank you, Senator Perdue. The office had 
previously worked on five very important voluntary initiatives. 
They largely tackled following the money--advertising, revenue, 
payment processing--to these rogue websites. If confirmed, I 
look forward to assessing how these existing voluntary 
initiatives are working and where they can be improved.
    I also look forward, if confirmed, to thinking of some 
enhanced enforcement strategies for this digital age. As we've 
been talking about today, this is a global issue and we need to 
make sure that we can combat piracy and counterfeiting 
domestically and overseas, and voluntary initiatives is a good 
place to start where we can bring in the private sector to 
think about some of these issues and use the IPEC office as a 
convener to bring some new solutions and thoughts to the table.
    Senator Perdue. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Perdue.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Ms. Lee and Mr. Marti, congratulations on your nomination, 
your impressive academic credentials, and your professional 
careers.
    I will just be very brief. I will just ask maybe the 
questions and let you each respond, in the interest of time.
    Ms. Lee, one question that I have. We obviously cooperate 
with other countries with respect to protecting patents and 
intellectual property, but what kind of assurances can you give 
us that we can step up our efforts, particularly to some of the 
jurisdictions that seem to be the most problematic now that do 
not fall under any trade agreements or other intervening 
frameworks that may be able to stop what we think is a 
dangerous through to our intellectual property and patent 
rights?
    And then, Mr. Lee, I was kind of curious to what extent--
Mr. Lee? Mr. Marti. Mr. Lee, you can answer the question, too.
    [Laughter.]
    Senator Tillis. You seem to be busy with your daughter 
right now, who is very good with a Smartphone.
    [Laughter.]
    Senator Tillis. But no. Mr. Marti, I was curious, to what 
extent would IPEC get engaged in advising the administration 
with respect to these sorts of issues in trade agreements, the 
pending trade agreement with Europe, the TPP, and potentially 
other countries that we have not yet gotten there with? Ms. 
Lee, you can go first.
    Ms. Lee. So, Senator Tillis, thank you very much for the 
question to address the issue of international priorities. 
Having come from the business world I recognize that there are 
precious few American companies who make a product or offer a 
service and intend to offer that product and service only 
within the United States.
    I mean, in this age of Internet where you can just as 
easily sell your product to a town in Texas or to some country 
overseas in Asia, I mean, the world in which you just file a 
U.S. patent and that is all you need is long gone. So one of 
the top priorities of mine, if confirmed, would be to make sure 
that we have an international IP system that is conducive to 
the export of American products and services. That is what we 
need to thrive in this global economy.
    In the past year, I have spent, and the team at the PTO has 
spent, a lot of time and energy working on issues such as 
international harmonization. If our American companies who are 
looking to get intellectual property protections overseas, 
right, more countries than just the United States, they need to 
be able to do so efficiently, cost-effectively, and without a 
lot of duplication.
    Each of our patent systems grew up in its own country and 
they all have their own filing requirements and they all have 
their own rules. That is a tremendous opportunity. It's the 
low-hanging fruit. By working on those harmonizations, 
procedural and substantive, I mean, we save our companies money 
and they get protections that they need more quickly. So that 
would be an emphasis and a priority going forward, if 
confirmed.
    Mr. Marti. Thank you, Senator Tillis. The enforcement of IP 
rights, as you alluded to, is certainly critical to the U.S. 
economy. When the IPEC position was created in 2008, it was 
done so to coordinate IP enforcement and IP policy throughout 
the Federal Government.
    If confirmed, I look forward to working with the USTR and 
other relevant stakeholders within the Federal Government to 
push for the inclusion of strong intellectual property rights 
in our trade agreements and otherwise press foreign governments 
for the respective U.S. intellectual property.
    Senator Tillis. Thank you both.
    Senator Cornyn. The Committee thanks both of the nominees 
for their appearance today before this hearing, and thank you 
to your families for supporting you.
    We are now going to let you go and we will stand in recess 
until the votes on the floor conclude, and then we'll return 
and go forward with the second panel of nominees.
    [Whereupon, at 3:26 p.m., the Committee was recessed.]
    [Whereupon, at 5:14 p.m., the Committee reconvened.]
    Senator Cornyn. We will at long last reconvene this 
nominations hearing. As I told each of the nominees, our 
apologies to you and your families. Unfortunately, when the 
Senate starts voting, if you are going to be doing your job, 
you have to go down there and vote and you don't have as much 
control over your life as you do on the bench. So, that is one 
great benefit to your line of work as opposed to ours.
    I will introduce three of the nominees and then turn it to 
Senator Lee to introduce the nominee from Utah, and then we'll 
proceed.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
TEXAS, INTRODUCING HON. ALFRED H. BENNETT, NOMINEE TO BE A U.S. 
DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; HON. GEORGE 
  C. HANKS, JR., NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE 
SOUTHERN DISTRICT OF TEXAS; AND HON. JOSE ROLANDO OLVERA, JR., 
 NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE SOUTHERN DISTRICT 
                            OF TEXAS

    We have, of course, four nominees for the Federal bench: 
three for the Southern District of Texas, and one from Utah.
    Judge Alfred Bennett is a presiding judge of the 61st Civil 
District Court in Harris County, Texas. He worked for many 
years in private practice at Fulbright, Jaworski, Solar & 
Fernandez, and as a sole practitioner. He has also taught law.
    Judge Bennett graduated from the University of Houston and 
earned his JD from the University of Texas School of Law.
    Judge George Hanks, Jr., serves as U.S. Magistrate Judge 
for the Southern District of Texas. He graduated first in his 
class from Louisiana State University and earned a JD from 
Harvard Law School and an LLM from Duke University School of 
Law.
    Judge Hanks began his legal career as a law clerk in the 
Southern District of Texas and spent a number of years in 
private practice. He served as judge for the 157th District 
Court and as justice for the Court of Appeals for the First 
District of Texas.
    Judge Jose Rolando Olvera, Jr., serves as a State district 
judge in the 445th State District Court of Texas, and as 
presiding judge of the Fifth Administrative Judicial Region in 
Cameron County, Texas, a job actually I used to have as the 
presiding judge of the Fifth Administrative Judicial Region. He 
graduated from Harvard University and earned his JD from the 
University of Texas School of Law.
    Judge Olvera worked for years in private practice as a 
State district judge in Cameron County and as a part-time 
municipal judge in Brownsville. I was told that Congressman 
Filemon Vela would be here; maybe because of the erratic 
schedule he is not here right now, but I understand he is a 
childhood friend of Judge Olvera. Of course, we will enter a 
statement from Congressman Vela into the record in support of 
his nomination.
    Senator Cornyn. Each of these three Texas nominees are 
lawyers of the highest caliber and the kind of individuals who 
should serve on the Federal bench. I'm sure the Utah nominee 
is, as well. But I happen to know, by virtue of our Federal 
Judicial Evaluation Committee, that Senator Cruz and I appoint, 
our bipartisan committee, that each of these nominees have been 
through that process and I have confidence in each of them and 
support each of their nominations.
    I am proud of the good work that the Federal Judicial 
Evaluation Committee has done. I want to express my gratitude 
to the White House counsel for their constructive engagement 
with us on each of these nominations.
    At this point let me turn it to Senator Hatch and Senator 
Lee for any comments they would care to make about Judge 
Parrish.

OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENA-TOR FROM 
THE STATE OF UTAH, INTRODUCING HON. JILL N. PARRISH, NOMINEE TO 
       BE A U.S. DISTRICT JUDGE FOR THE DISTRICT OF UTAH

    Senator Hatch. Well, thank you, Mr. Chairman. I share your 
opinion of these three judges from Texas. I am pleased today to 
introduce to the Committee an outstanding nominee to fill the 
vacancy on the U.S. District Court in Utah.
    Justice Jill Parrish currently serves on the Utah Supreme 
Court. During her 12 years on our State's highest court she has 
participated in approximately 900 cases that resulted in a 
written opinion. She is well-known, widely respected in the 
Utah legal community and elsewhere, and I am certain that she 
will be a great asset to the Federal bench.
    Mr. Chairman, I have participated in the appointment of 
three-quarters of the judges who have ever served on the U.S. 
District Court in Utah. That experience has given me a sense, 
both personally and professionally, of the kind of individual 
who will serve well on the Federal bench.
    That experience gives me every reason to strongly recommend 
Justice Jill Parrish for this appointment. I know her 
personally, I know her family, I know what a great human being 
she is. The United States has the most respected, most 
independent judiciary in the world.
    We expect our nominees to the Federal bench to have a 
record of accomplishment in their chosen areas of legal 
expertise. I am struck, however, at how Justice Parrish has 
done this in so many areas to bring such a broad range of 
experience to this appointment.
    She has established a record of excellence both before and 
behind the bench in both State and Federal court, in private 
and public sectors, and in both trial and appellate courts. The 
American Bar Association unanimously gave Justice Parrish its 
highest ``well qualified'' rating.
    Here is how the ABA describes what it takes to get this 
rating: ``The prospective nominee must be at the top of the 
legal profession in his or her legal community, have 
outstanding legal ability, breadth of experience, and the 
highest reputation for integrity, and demonstrate the capacity 
for judicial temperament.'' I think that basically says it 
all--and it certainly applies to Jill Parrish.
    I want to thank Senator Lee, who is not only my colleague 
on this Committee but also my partner in representing our great 
State and in recommending the best candidates for judicial 
appointment. We both agree that Justice Jill Parrish is a great 
nominee to the U.S. District Court. I strongly recommend her 
swift and unanimous confirmation and I just want her to know 
that we are extremely proud of her, extremely proud of the life 
she's lived, the family she is raising and has raised, and her 
exceptional ability in the law and as a judge. I could not be 
more pleased with the nominee than I am with this really, 
really good woman jurist who has made such a name for herself 
not only in Utah, but around the country as well.
    Thank you, Mr. Chairman.
    Senator Cornyn. Senator Lee.

OPENING STATEMENT OF HON. MICHAEL S. LEE, A U.S. SENA-TOR FROM 
THE STATE OF UTAH, INTRODUCING HON. JILL N. PARRISH, NOMINEE TO 
       BE A U.S. DISTRICT JUDGE FOR THE DISTRICT OF UTAH

    Senator Lee. Thank you, Mr. Chairman. Thanks to all of you 
for joining us today. I just want to echo the words of my 
friend and colleague from Utah, Senator Hatch. This is a good 
day for Utah, a good day for the Federal judiciary. This seat 
and the filling of it are really important to me, for a couple 
of reasons. First, the seat to which Justice Parrish has been 
nominated is one that has been occupied by Judge Benson.
    Judge Dee Benson has served in this seat since the early 
1990s and I clerked for him right after I finished law school. 
He is a judge of extraordinary character and talent. He is 
someone who served in various capacities here in the Senate and 
served as a Deputy Assistant Attorney General, also as U.S. 
Attorney in Utah. He was an outstanding employer and has been a 
mentor and a friend to me throughout my career.
    Second, because of that, because of who held that seat, we 
wanted to make sure that whoever filled this seat was someone 
of extraordinary talent, someone up to the task, up to filling 
the shoes of Judge Benson. I could not be more thrilled that 
the person to fill that slot, the person nominated to fill that 
slot, is Justice Parrish.
    Justice Parrish and I had adjacent offices to each other 
while we were both at the U.S. Attorney's Office. She served at 
the U.S. Attorney's Office from 1995 to 2003 and finished that 
job as head of the Financial Litigation Section within the 
Civil Division of that office.
    She had distinguished herself by that time as an 
extraordinary litigator. Between that and her private practice 
at one of our State's premier law firms, the firm formerly 
known as Kibble Parr that has had many name changes since then, 
largely because its named partners keep being named to high 
judicial positions within our State.
    Justice Parrish has served alongside my brother Tom, who 
serves on the Utah Supreme Court. The two of them work well 
together. I figure anyone who can work well with my brother and 
get along well with him is well prepared for the Federal 
judiciary.
    Jill Parrish is a friend to all who know her and is a 
credit to her profession, to the legal profession and to 
jurists everywhere. I am honored to support your nomination. 
Thank you.
    Senator Cornyn. Thank you, Senator Lee.
    Let me ask the nominees to please stand and raise your 
right hand to be sworn.
    [Nominees are sworn in.]
    Senator Cornyn. Thank you. Please have a seat.
    I have a few, very general and relatively brief questions, 
although I had to think, Justice Parrish, about the definition 
I heard one time of an appellate judge, of which I used to be 
one: It is a person who hides in the hills while the battle 
rages below, and then when it's over, swoops down to kill the 
wounded. That was a judge joke.
    [Laughter.]
    Senator Cornyn. That was a little judge humor, I guess.
    Senator Hatch. It could only come from Texas, is all I can 
say.
    Senator Cornyn. But obviously you're getting down into the 
fight from the appellate bench, back down into the trial court, 
which I always found was a lot more fun and entertaining 
anyway.
    But what I might do first, starting with Judge Bennett, 
would you mind introducing your family and friends who you 
brought here with you and we'll go down the line and give you 
that opportunity? This is a big day for them, too.

   STATEMENT OF HON. ALFRED H. BENNETT, NOMINEE TO BE A U.S. 
       DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS

    Judge Bennett. Thank you, Senator. Thank you to Chairman 
Grassley and to Ranking Member Leahy for scheduling this 
Committee hearing, and thank you to the Members of the Senate 
who are appearing here today. And thank you especially to 
Senators Cornyn and Cruz for their recommendation to the 
President of the United States on my nomination to the Federal 
bench. And, of course, thank you to the President of the United 
States for this great honor, the greatest honor of my 
professional career.
    Today I have the privilege of having my wife of 20 years, 
Tanyel here with me today, along with our sons, Charles and 
Shane. Charles is a Life Scout, one from Eagle. Shane is a 
Tenderfoot and active in their Boy Scout troop. My mom, Cora 
Whitlock, is here, as well as my sister Yolanda Babels, and 
brother Darryl Bennett, all from Texas.
    Mr. and Mrs. Matthew Washington, friends, and their son and 
daughter are joining us as well. I am also very honored to have 
my two best friends from law school here, Jeff Sands, who is an 
attorney with the Department of Justice, and Theodore Marcus, 
with the Federal Communications Commission.
    I'd like to also thank the Harris County district judges 
with whom I serve. Their leadership, their counsel to me during 
my career on the bench has been very important in me reaching 
this point.
    Of course, I could not go far without thanking the staff of 
the 61st District Court, the best court staff in the State of 
Texas. Their support has been instrumental in my success on the 
bench and I want them to know how much I appreciate it.
    I would like to thank my father, who could not be here 
today, as well as my brother Brent who is not here, and to all 
of my family and friends in Houston and in Ennis who are 
watching this via the webcast. With that, I'm prepared to 
answer any questions that the Committee may have.
    Senator Cornyn. Thank you, Judge.
    Judge Hanks.

 STATEMENT OF HON. GEORGE C. HANKS, JR., NOMINEE TO BE A U.S. 
       DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS

    Judge Hanks. Mr. Chairman, Members of the Committee, thank 
you so much for the opportunity to appear before you this 
afternoon. Thank you to Senator Grassley for scheduling this 
hearing, and to President Obama for nominating me to serve my 
fellow citizens as a district judge. It is truly an honor and a 
privilege, and very humbling, to be here in this place before 
you where many years ago I started my journey into public 
service, working for this institution as a young Senate page.
    Thank you, Senator Cornyn and Senator Cruz, for your kind 
words of support. The confidence that you have placed in me to 
serve the citizens of our great State of Texas, and this 
country, and for recommending me as a district judge to the 
President.
    I would like to introduce you to the very special people in 
my life who are here with me this afternoon whose constant love 
and support has brought me here today.
    To my right is the love of my life, my wife of 20 years, 
Stacy Hanks. Stacy is a social worker back in Texas. Directly 
behind me is the man who is, and always will be, my hero, my 
dad, George C. Hanks. My dad is retired and he is a U.S. Air 
Force veteran.
    My mother was a school teacher. She passed away a few years 
back, but her hopes and dreams live on through me here this 
afternoon. I know that she is here in spirit, looking down on 
these proceedings with inexpressible pride.
    Also watching the webcast of this proceeding are my 
brother, Kendrick Hanks, and my sister-in-law, Lily Hanks, and 
their son, Kendrick, Jr., who is watching these proceedings 
with his classmates still at Abbott Elementary School in 
Garland, Texas. Also, my niece Elise Ann, who is also watching 
these proceedings with her classmates at Coral Middle School in 
Garland.
    Also here with me is a dear friend of mine, Gabarro Smith, 
with the U.S. Attorney's Office. Watching on the webcam are my 
law clerks and my colleagues in the Southern District of Texas, 
who all represent the very finest in public service. Thank you, 
sirs, for your patience. I look forward to answering your 
questions.
    Senator Cornyn. Judge Olvera.

  STATEMENT OF HON. JOSE ROLANDO OLVERA, JR., NOMINEE TO BE A 
              U.S. DISTRICT JUDGE FOR THE SOUTHERN
                       DISTRICT OF TEXAS

    Judge Olvera. Thank you, Senator Cornyn. It is a distinct 
honor for me to be here today, especially among such 
distinguished colleagues. I congratulate them on their 
nomination. I do want to take this opportunity to thank you, 
Senator Grassley, Senator Leahy, and every Member of this 
Committee for their support and their agreement to have this 
vote today.
    I would like to thank Senator Cruz and Senator Cornyn, 
yourself, for recommendation to the President. I'd like to 
thank the President for his nomination. I, additionally, would 
like to thank the Federal Judicial Evaluation Committee formed 
by Senator Cruz and Senator Cornyn for their recommendations to 
the Senators. It was my privilege to meet with the Senators 
last year and I thank them for every step of the process.
    I would note that I would like to thank Congressman Vela 
for his introduction in the record. I would like to acknowledge 
my wife and friend that I have here today, the love of my life 
for approximately 16 years, is Rita. She's behind me today. And 
my dear friend from South Texas, Bobby Garcia, is here today.
    I would also like to acknowledge my family down home 
watching via webcast. My foundation and reason for being here 
are my parents, Rolando and Venilia Olvera. I am also very 
fortunate to have loving in-laws, Rita's parents, Bruno and 
Rita Salvaletta. Our pride and joy for both grandparents and 
parents are our children, Rolly, III, and Catarina. I would 
also like to acknowledge my brother and his family, Renee and 
Dr. Michelle Olvera in San Antonio, and their two children, my 
sister Claudia and Garrett Cobbs of Houston and their two 
children. Their family support has been invaluable.
    My working family is in many ways just as important. I must 
mention my thanks to the 445th State District Court staff. 
Thank you for all your hard work in making me look good. 
Likewise the Fifth Region Administrative staff of Texas, thank 
you for all your hard work, in addition to the staff at OCA.
    I would be remiss if I did not mention my judicial 
colleagues in South Texas and all of the presiding judges in 
South Texas. It is a distinct honor to work with every one of 
you.
    Last, I would like to thank all of my friends and 
supporters in South Texas and I thank them for their support. 
Once again, I look forward to answering your questions, and it 
is an honor to be here today.
    Senator Cornyn. Thank you, Judge Olvera.
    Justice Parrish.

           STATEMENT OF HON. JILL N. PARRISH, NOMINEE
      TO BE A U.S. DISTRICT JUDGE FOR THE DISTRICT OF UTAH

    Justice Parrish. Thank you, Senator Cornyn and Members of 
the Senate Judiciary Committee. It is a real pleasure to be 
here with you today. I particularly want to thank Senator Hatch 
and Senator Lee not only for those kind words of introduction, 
but for your support and the confidence that you have placed in 
me in recommending my name to the White House for 
consideration. You have championed my nomination and I know 
that I would not be here today without your support.
    I also want to thank my judicial colleagues on the Utah 
Supreme Court. I have learned much from them and, frankly, that 
will be the hardest part of this process for me, is to say 
goodbye to wonderful colleagues from whom I have learned so 
much.
    Finally, I want to thank my family for their love and 
support and introduce them to you. I have my husband and three 
of my five children here. My husband, Blake, is right here. He 
has been stuck with me for the last 26 years. I also have my 
oldest daughter Brooke, who is back there on the second row. My 
babies--and they're not babies anymore--are my twins, 
Jacqueline and Adrienne, who are both 15 years old and 
sophomores at Woods Cross High School.
    Then, my second daughter, Lindsay, is a sophomore at Utah 
State University and was unable to attend because of academic 
responsibilities. My only son, Zachary, is a senior at Woods 
Cross High School and he was unable to attend because he has a 
varsity basketball game that he has to play in tonight. So we 
made a deal. He is watching this via webcast and I hope to be 
able to tune in to his basketball game tonight via a similar 
kind of technological innovation that they now have going on 
the high school basketball circuit in Utah.
    My one regret is that my parents are not here to share this 
occasion with me. They were members of the greatest generation. 
In fact, had they been alive they would have been 100 years old 
and 101 years old, respectively. They were my biggest fans. 
They launched me and I know that they are with me here today in 
spirit. Thank you again very much. I, too, look forward to 
answering your questions.
    Senator Cornyn. Thank you very much, Justice Parrish.
    We will have 5-minute rounds. But given the lateness of the 
day and our familiarity with the nominees, I think it will be 
somewhat informal and sort of general. But I would just ask 
each of the nominees to talk to us a little bit about your 
judicial philosophy and the role that judges play in our 
Government. Do you view yourself as somebody who is sort of by-
the-book or do you feel like you are a roving doer of justice 
and have some flexibility in terms of what your role is to 
achieve the results that perhaps you think are most just in any 
circumstance? Talk to us a little bit about that. Judge 
Bennett, please start.
    Judge Bennett. Thank you, Senator, for the question. I 
believe that my judicial philosophy has been reflected in my 
past 6 years on the bench, and that has been a fair and 
impartial administrator of justice, to follow the rule of law, 
to follow binding precedent of the Texas Supreme Court, and of 
the applicable appellate courts that I report to.
    If I am confirmed by the Senate, I believe that that would 
switch to the U.S. Supreme Court in the Fifth Circuit. So for 
my judicial philosophy, it's been an impartial administrator of 
the rule of law and to follow binding precedent.
    Senator Cornyn. Judge Hanks?
    Judge Hanks. Thank you, Senator. My judicial philosophy is 
philosophy that I followed as a State district judge, an 
appellate judge, and now as a magistrate judge, which is to 
honor the oath that I have taken as a judge to treat every 
party that comes before me fairly and justly under the law, and 
with dignity and respect, to always follow the precedent that's 
binding in front of me, and in everything I do, both my 
personal life and on the bench, to maintain the integrity of 
the legal justice system and the confidence that people in this 
country have placed in the judiciary.
    Senator Cornyn. Judge Olvera?
    Judge Olvera. Thank you, Senator Cornyn. My judicial 
philosophy for the approximately past 12 years as a State 
district judge has been consistent. It is a combination of four 
crucial elements: (1) to adhere to a duty to administer and 
enforce the rule of law; (2) to maintain an unwavering demeanor 
of courtesy and respect to any and all before my court; (3) to 
adhere to a work ethic of moving the docket quickly and 
efficiently; and last, a goal of rendering a fair, consistent, 
and sagacious ruling in every single case.
    Thank you, Senator Cornyn.
    Senator Cornyn. Justice Parrish?
    Justice Parrish. Thank you, Senator.
    I believe that my judicial philosophy has also been 
reflected in my last 12 years on the bench, and I would say 
that it encompasses 5 main principles.
    First, treat all parties and attorneys who appear in front 
of me with courtesy, dignity and respect.
    Second, afford all parties procedural fairness.
    Third, maintain an open mind until the issues are fully 
presented.
    Fourth, work hard and always be prepared. And I can assure 
you that in the 12 years that I've been on the Utah Supreme 
Court, I have never taken the bench without being 100 percent 
prepared and having read everything that the parties have 
submitted.
    And five, uphold the rule of law by following the statutory 
text and applying precedent. There is no room for a judge to 
come to the bench with a personal agenda.
    Senator Cornyn. I have one last question during this round 
and then I'll defer to my colleagues. I worry that our civil 
justice system is so expensive and so time consuming that it 
precludes access for many citizens who have legitimate 
grievances they need to get resolved but they cannot afford a 
lawyer to represent them, or only in some cases, for example, 
where there is a serious injury or a wrongful death where a 
contingency fee agreement might be appropriate can they gain 
access to court.
    The time it takes to resolve those differences not only 
runs up the cost but may be as effective a bar to justice as a 
locked front door to the courthouse. I would just be interested 
in your thoughts and maybe reflections on some of those 
challenges in our civil justice system, starting with Judge 
Bennett.
    Judge Bennett. Senator Cornyn, as a former district court 
judge and supreme court justice, you know that the most 
important thing that you can give litigants before you are 
timely rulings. I believe that if you move cases efficiently 
you cut down on the costs associated with litigation. I have 
always striven to make sure that my cases were being moved 
efficiently, that rulings were prompt to allow litigants to 
move the cases through the system.
    In addition, I think it is very important that you meet 
with the litigants and the attorneys as soon as possible to get 
an estimate of the potential for a trial setting such that you 
can give a realistic time for a docket control order or when 
the case may come to trial. With those rules in place, I think 
you lowered the cost of litigation and you make the system a 
lot more efficient.
    Senator Cornyn. Judge Hanks?
    Judge Hanks. Senator, I also share the concerns about, with 
the growing caseloads, making sure that the courts are 
accessible to all people that desire to have their cases heard. 
In that regard, I believe that the judges and the courts play a 
critical role in that and how we manage the cases.
    As a judge, as a district judge and then now as a 
magistrate judge, the way that we handle that is, first, to 
establish reasonable deadlines, working with the parties to get 
the case ready for trial as quickly as possible; as Judge 
Bennett mentioned, having prompt rulings on all motions that 
are before the judge in the court; also scheduling alternative 
dispute resolution as necessary, and then, of course, in the 
Federal courts, utilizing your magistrate judges as effectively 
as possible.
    Senator Cornyn. Judge Olvera?
    Judge Olvera. Thank you, Senator. I concur with my 
colleagues. I truly believe that a judge must be actively 
involved in every case in setting very strict deadlines, both 
procedurally and in terms of timeliness. I have always, over 
these past 12 years, maintained very strict scheduling orders. 
My civil pre-trial order is infamous at the courthouse in terms 
of its strictness and severity.
    In summary, I believe the more you require the attorneys to 
work on a case and work together on a case, both in terms of 
discovery, exchanging of exhibits, preparing for trial, the 
more likelihood it is either going to settle and/or, if we need 
to go to trial, run a very quick and efficient trial without 
any delay. Once again, it is incumbent of the judge to be 
actively involved form the commencement to the end in order to 
promote the trial or settlement, and I believe in that.
    Senator Cornyn. Justice Parrish?
    Justice Parrish. Thank you. I agree with my fellow nominees 
in terms of the importance of judicial involvement in case 
management from the outset of a case. I also would like to add 
that I think it is important to carefully consider and timely 
rule on dispositive motions because if those are appropriate 
and can be granted, that can also help to decrease the time and 
expense associated with getting a case to a final resolution. 
And, of course, a timely ruling by the trial judge is equally 
important.
    Senator Cornyn. Senator Hatch.
    Senator Hatch. Well, I am impressed with you Texan judges, 
there's no question about that. I think that you have a great 
champion here in Judge Cornyn, who is a tremendous asset to 
this Committee. So, I commend each of you and I feel you are 
going to make very good judges on the district court bench. As 
someone who tried a lot of cases in Federal court, among some 
very interesting judges, by the way, both--in Pittsburgh, we 
had Judge Wallace Gourley, who was a law unto himself, but 
brilliant. The same thing in Utah with Judge Willis Ritter, who 
was a law unto himself, brilliant as could be, and very erratic 
in some of the things he did. But I always got along with him.
    You judges bring things to the court, to your respective 
courts, that I think are going to be very, very good. I have 
known Jill Parrish for a long time--Justice Parrish. I have 
nothing but the best respect for her and her ability and 
capacity to be a district court judge. I will ask one question 
of you, Justice Parrish. That is that, you know, the Committee 
sees nominees all the time who currently serve as trial judges 
and who are nominated to the appellate level. We see that.
    But here we have you, an appellate judge, who is nominated 
to the district court level to preside over individual trials. 
I would just appreciate your perspective on two things: (1) 
What are some of the important characteristics or qualities 
that both trial and appellate judges must have, and (2) What do 
you anticipate are some of the differences between your current 
role as an appellate judge and your upcoming role as a trial 
judge?
    Justice Parrish. Thank you, Senator. You are correct that 
my career path is a bit atypical in that I am going from an 
appellate bench to the trial bench. But the truth is that I 
spent the first 18 years of my legal career primarily in the 
district court and I really miss the courtroom. I believe that 
the skills that I have developed not only during the 18 years 
that I spent primarily in the trial courtroom, but also during 
the last 12 years on the Utah Supreme Court, will serve me well 
on the district bench.
    They really both involve the same skill, and that is of 
applying the law to the facts. While there are some differences 
in terms of the fact that appellate courts have the facts 
already determined, trial judges, of course, are involved in 
overseeing the jury and the jury has the role of finding the 
facts, but I believe that the skills and the decisionmaking 
process is very similar.
    One of the new challenges, of course, will be in actually 
moving cases along and in the case management aspect, but I 
believe that the skills I developed while I was a trial lawyer 
will serve me well in that regard, and that is an area where I 
can quickly come up to speed.
    Senator Hatch. Well, thank you. I am very proud of you and 
look forward to your working in this very, very important area 
because this is where really a lot of things are decided right 
on the trial level and it takes really good, honest judges to 
do that. I just want you to know I have every confidence you'll 
be one of the best judges in the country, as I do with these 
other gentlemen as well.
    But thank you for being willing to do this. I know that 
being a justice on the Utah Supreme Court is a very high honor 
in and of itself. But I am grateful that you're willing to get 
back to the district court level where you worked for many 
years, and I know you'll do a great job.
    Justice Parrish. Thank you.
    Senator Cornyn. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    I'd like to hear your thoughts on an issue that Justice 
Parrish referred to a minute ago, which is dispositive motion, 
the role dispositive motions play in a Federal trial court. It 
has been my view, or, at least, a fear of mine, that there 
might be a natural tendency in any trial court for a judge to 
engage in what I sometimes refer to as trial by attrition.
    In other words, when you're faced with a dispositive 
motion, I would think there would be a natural temptation to 
want to deny the motion in a close case. It is easier to deny. 
Usually there is a shorter order involved if you deny the 
dispositive motion. There's not an appeal that will immediately 
follow if you deny the dispositive motion. Because of all these 
factors, it's just a lot less work and a lot less risk to the 
judge and there's a lot greater likelihood that the case will 
just go away, it'll just settle along the way.
    So how do you protect against that? How do you protect 
yourself against that, against this natural tendency that I 
think all humans would have in that circumstance? Why don't we 
start with you, Justice Parrish, and then move down to the 
others?
    Justice Parrish. Thank you, Senator Lee. And I do agree 
with you that litigation is very expensive and it is not a good 
thing when motions that ought to be granted are denied because 
trial judges are afraid to take a stand and make a decision. 
But I would see that as part of my duty in applying the law. 
The rules of civil procedure dictate that a party is entitled 
to summary judgment when there are no material facts in 
dispute.
    So if a judge is willing to roll up her sleeves and do the 
work to make that determination, then the judge should not be 
deterred by the fear of an appeal. I believe that I know what 
goes on at an appellate level and I believe that I'll have the 
confidence to look hard at those issues and to grant summary 
judgment where it is appropriate.
    Senator Lee. And I assume, by the way, that an appellate 
judge who has shown up every day for 12 years, never being 
unprepared for an appellate argument, is one who would likely 
approach dispositive motions with the same degree of 
preparation.
    Justice Parrish. I would.
    Senator Lee. Hypothetically, of course. Yes?
    Judge Olvera. Thank you, Senator Lee. Well, I do concur 
with much of what Justice Parrish just indicated. And as I 
indicated before, I have a very strict scheduling order and 
civil pre-trial order that sets deadlines in terms of discovery 
and dispositive motions. Once again, when and if I hear a 
dispositive motion vis-a-vis a motion for summary judgment, I 
am bound by the rule of law.
    In the scenario when giving the light most favorable to the 
respondent, there is no material issue of fact or insufficient 
evidence. I have no objection to issuing a motion for summary 
judgment. That is my duty. It is the law. On the same token, if 
they do not meet that difficult burden, well, we're back to the 
stages of proceeding to a trial and I follow the law.
    Judge Hanks. Senator, I agree with everything my fellow 
nominees have said. It is--as a judge you have an oath to 
uphold the law and follow the law and apply it evenly and 
fairly in every case. Part of that job is to timely and 
efficiently rule on the motions that's before you. Yes it may 
take time, and yes it may be difficult, but it's your 
obligation.
    It's the oath that you've sworn to under--undertake. So as 
a judge, as a trial judge, both a State trial judge and a 
magistrate judge, although it's very time-consuming in cases 
going through Motions for Summary Judgment, I've always taken 
the time to look at those motions carefully.
    And as a former appellate judge, I kind of have a feeling 
and an idea of what the appellate judges are looking for, as 
well when you grant dispositive motions. So I feel that I've 
been able to efficiently rule on those motions timely and move 
the cases along with minimal costs to the parties.
    Judge Bennett. If a dispositive motion has merit, it should 
be granted. The rules of procedure provide for that and, if you 
follow the rule of law, dispositive motions will be granted if 
they have merit.
    Senator Lee. Great. Okay. So my time is about to expire so 
I'm going to save this question just for our Utah nominee.
    Justice Parrish, when we're looking at a question of 
statutory interpretation, these questions will arise constantly 
in the court to which you've been nominated. When you approach 
those are you bound by the original meaning of the text, and if 
so, when there is uncertainty as to the original meaning of the 
text, how do you resolve the case, how do you decide the case?
    Justice Parrish. I absolutely agree that the text is where 
you go and in most cases the text will provide the answer. 
There may be some few cases of first impression where that's 
not the case. Of course, in the U.S. District Court you would 
also be bound by any Tenth Circuit precedent or Supreme Court 
precedent interpreting that same statute. I believe that it is 
important to look at what the meaning of that text would have 
been to the framers who adopted the Constitution or to the 
legislators who adopted a particular statute.
    I think if you look at the opinions that I have authored 
over my 12 years on the supreme court, they begin with a text. 
There are some rare occasions where the text doesn't provide 
the answer and in that case, of course, you look at how the 
text is situated in the document. You see if there are other 
portions of the statute that shed light on the meaning of that 
text. And as a last resort, you can turn to well-accepted 
principles or canons of statutory construction to fill in any 
gaps.
    Senator Lee. Great. Thank you very much. I see my time's 
expired. Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Lee.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. I want to welcome 
each of the four of you here, congratulate you on y our 
nominations to a very important post. Each of the men and women 
gathered here are very impressive. You have assembled serious 
professional accomplishments over long and distinguished 
careers.
    I would note the three Texas nominees, you have gone 
through a long and grueling process that involved going through 
the Federal Judicial Evaluation Committee that Senator Cornyn 
and I have established where your backgrounds, your practice, 
were carefully scrutinized by some of the most experienced and 
respected attorneys in the State of Texas, in a bipartisan 
manner.
    And each of the three of you with respect to the Texas 
nominees came through with flying colors and so you have 
impressed your colleagues with your diligence, and integrity, 
and practice of law. So I congratulate you with that. Senator 
Cornyn and I have had the opportunity to visit with each of you 
as well, and you've impressed us as well which--I'm a pushover, 
but getting John on board is pretty tough. So, I congratulate 
you on that.
    I'd like to ask each of the four of you at the outset 
simply a question, which is, briefly, how would you describe 
your judicial philosophy? Judge Bennett, why don't we start 
with you?
    Judge Bennett. Thank you, Senator Cruz. When I first 
started on the bench one of the things that I said I wanted to 
do was impress my mom if she was sitting in the back of the 
courtroom. So that means, to me, to be respectful to the 
litigants who are before me, to listen, to make sure that when 
they leave that courtroom, that they feel that they have had a 
fair and impartial hearing before a judge. When a litigant has 
been treated respectfully, has been heard, and has had an 
impartial ruling, the ends of justice have been served.
    Senator Lee. And I do have to ask you, is your mom sitting 
here in the hearing room today?
    Judge Bennett. Yes, sir.
    [Laughter.]
    Senator Cruz. Well, welcome. And I have every doubt that 
today you have satisfied that test--or every certainty, rather.
    Judge Hanks. Thank you, Senator, for that question. You 
know, growing up in Louisiana, my dad taught me that if ever 
you're faced with a difficult decision in life, whatever it is, 
always treat people the way you'd want to be treated, with 
dignity and with respect. And if you do that, no matter what 
the issue is, you'll always come to the right conclusion.
    As a judge, my judicial philosophy has been to honor the 
oath that I've taken as a judge, to always treat the litigants 
the way I would want to be treated, or my family members would 
want to be treated, in court, with dignity and respect, and to 
evaluate and adjudicate all matters that come before me fairly 
and justly under the law, and in everything I do, both in my 
personal life and on the bench, to protect and preserve the 
confidence that people have placed in the Judiciary Committee 
and the integrity of the legal justice system. And I've done 
that for the last 14 years on the bench and I would continue to 
do that as a district judge.
    Judge Olvera. Thank you, Senator Cruz. It's a pleasure to 
see you here today. My judicial temperament is based on a 
theory of humility and respect. Humility as a judicial public 
servant and respect for the legal system. My judicial 
philosophy is cored in four elements that I adhere to: a duty 
and commitment to the rule of law; number 2, courtesy and 
respect to any and all before--that appear before the court; 
number 3, a work ethic--a hard work ethic to move the docket 
quickly and efficiently; and last, to have a constant goal to 
issue fair, consistent, and sagacious rulings that come before 
the court.
    Justice Parrish. Thank you, Senator. If I am fortunate 
enough to be confirmed, I will take this position with no 
personal agenda whatsoever other than to apply the law and to 
treat everyone with courtesy and respect and to afford them 
procedural fairness.
    And I think it's always important to keep in mind that 
while a judge may hear many matters over the course of a day, 
or a week, or a month, that for the litigants who were involved 
in those cases, that case is likely the most important or one 
of the very most important things going on in the life of those 
individuals at that point in time. And I think if the judge can 
keep that in mind, then that puts the rest of it into 
perspective and it makes the judge more inclined to work 
harder, to keep an open mind, to be completely impartial and to 
apply the law.
    Senator Cruz. Well, let me thank each of you. And with the 
Chairman's indulgence, if I may ask one more question, which 
is, I'd like to ask each of you to define judicial activism and 
to articulate your views as to a judge's obligation not to 
engage in judicial activism. Why don't we start with you, 
Justice Parrish?
    Justice Parrish. Thank you, Senator. I believe that 
judicial activism is when a judge brings an agenda to the 
bench, when a judge is willing to substitute his or her own 
views and to take that into account as opposed to the law. Then 
that could be judicial activism. It could also manifest itself 
if a judge decides issues that aren't squarely presented or 
issues that don't need to be decided.
    Judge Olvera. Thank you, Senator Cruz. I concur with my 
colleague's opinion. I would define judicial activism as a 
judge who fails to follow his duty to follow the rule of law 
and promote personal beliefs in contravention of said duty. I 
believe my judicial record is a proven asset in that I have 
consistently applied the rule of law over these past 12 years 
and, if confirmed, I would commit to you and the citizens of 
this great country to continue to do the same.
    Judge Hanks. I concur with my colleagues, my fellow 
nominees. A judicial activist is someone who fails to honor the 
oath that they've taken as a judge to uphold the law and apply 
it fairly, to leave their personal feelings out of their 
decisionmaking, and to not honor the needs and desires of the 
litigants, that is, to put their needs before that of the 
litigants. In my 14 years on the bench I have honored that 
oath, and I would continue to honor that oath if I'm privileged 
to serve as a district judge.
    Judge Bennett. Thank you, Senator Cruz. I agree with my 
fellow nominees. I believe that if you uphold our oath as a 
judge you will not have a personal agenda in the courtroom, you 
will not have your finger on the scales of justice, and that 
you will fairly and impartially administer the law.
    Senator Cruz. Thank you to each of you, and congratulations 
again.
    Senator Cornyn. That is it for our hearing for today. I 
would just like to again express my appreciation to each of you 
and your families for being here before the Committee and 
answering all of the questions and enduring all of the process 
that led up to this point, as well as the hectic schedule of 
the Senate when votes intervene right in the middle of what you 
thought was going to be a smooth and efficient hearing.
    The record will remain open for a while, to be determined 
by the Chairman, at which time there may be additional 
questions submitted to you in writing. And so if there are I 
hope you will pay attention to those and timely respond. I'm 
not sure there will be, but there's--that's part of our usual 
process. With that, let me thank you again for being here with 
us today and congratulations on making it this far. The next 
step will be for the Chairman of the Judiciary Committee to 
schedule a mark-up to actually vote on those nominations, and 
that will be--I'm sure his staff will be in communication with 
you about what that likely time table will be.
    So with that, the Committee is adjourned.
    [Whereupon, at 6:03 p.m. the hearing was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

 Questions Submitted to Hon. Alfred H. Bennett, Hon. George C. Hanks, 
Jr., Hon. Jose Rolando Olvera, Jr., and Hon. Jill N. Parrish by Senator 
                                  Cruz

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Questions Submitted to Hon. Jill N. Parrish by Senator Grassley

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

   Responses of Daniel Henry Marti to Questions Submitted by Senator 
                                 Vitter

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


 NOMINATIONS OF KARA STOLL, NOMINEE TO BE A U.S. CIRCUIT JUDGE FOR THE 
   FEDER-AL CIRCUIT, AND ROSEANN A. KETCHMARK, NOMINEE TO BE A U.S. 
          DISTRICT JUDGE FOR THE WESTERN DISTRICT OF MISSOURI

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Grassley, Chairman of the Committee, presiding.
    Present: Senators Grassley, Tillis, and Franken.
    Chairman Grassley. I am not going to make an opening 
statement until my two colleagues have made their statement.
    If you are ready, Senator Blunt and Senator McCaskill. 
Senator McCaskill, you are the senior Senator, so we will start 
with you.
    Senator McCaskill. I am going to defer to my colleague.
    Chairman Grassley. Then, Senator Blunt.

 STATEMENT OF HON. ROY BLUNT, A U.S. SENATOR FROM THE STATE OF 
 MISSOURI, INTRODUCING ROSEANN A. KETCH-MARK, NOMINEE TO BE A 
    U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF MISSOURI

    Senator Blunt. Well, I am pleased to be here, Chairman. I 
thank Senator McCaskill for deferring to me. I have got an 
appropriations hearing on Armed Services and I am going to be 
leaving to go there, but that should not be a reflection of any 
lack of enthusiasm for this nominee.
    I think Roseann Ketchmark will do a great job as a judge. I 
am supportive of her. Looking at her background, I think we 
will all be impressed the more we find out about her. She spent 
4 years while getting her law degree as a registered nurse.
    She served for 12 years on the advocacy board for the Child 
Advocacy Center. This is something that, in the last Congress 
when we extended the Victims of Child Abuse Act, many of us got 
to be more familiar with those centers and the good work they 
do than we would be otherwise.
    I am not personally well connected to the Ketchmark family, 
but I have lots of friends who are. And by the way, her family 
is here with her today. Her husband, her brother-in-law, her 
three children, all proud of her, as they should be.
    But I am well connected with people that she has worked 
with and for. She worked for the Jackson County prosecuting 
attorney, who is a friend of mine. She worked for the Platte 
County prosecuting attorney, who is a friend of mine. She 
worked for--when Senator McCaskill was the Prosecutor in 
Jackson County, obviously worked for a Democrat. She worked for 
a Republican prosecutor in Platte County. She worked for a 
Republican U.S. Attorney and a Democrat U.S. Attorney and in 
all cases, they are supportive of her and her work and an 
advocate for her as we talk about this judgeship for the U.S. 
District Court Judge for the Western District of Missouri.
    I hope the Committee reports her out favorably and I intend 
to support her not only today, but on the floor.
    Senator McCaskill.

  STATEMENT OF HON. CLAIRE McCASKILL, A U.S. SENATOR FROM THE 
STATE OF MISSOURI, INTRODUCING ROSEANN A. KETCHMARK, NOMINEE TO 
 BE A U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF MISSOURI

    Senator McCaskill. Thank you very much. Thank you, Senator 
Grassley, and thank you, Senator Blunt.
    I am honored to be here today to lend my support to Roseann 
Ketchmark for a position on the Western District Federal bench.
    I have known Roseann since I took office as Jackson County 
Prosecutor in January 1993. She was an Assistant Prosecutor in 
the Office. And when you run a prosecutor's office, many days 
it feels like you are herding cats, and I am not talking about 
the criminals. I am talking about all the Type A personalities 
you have in the office, because people who are attracted to the 
work of a prosecutor, many types have--well, let us say maybe a 
heightened sense of self, to put it diplomatically.
    Roseann stood out to me because she did not. Roseann was a 
trained nurse and as I grew to know my staff, I was always 
struck by the fact that she was not capable of showboating. She 
was not capable of trying to get the light to shine on her. She 
had no sharp elbows. She kept her head down and worked 
incredibly hard and produced a quality product, and by product, 
I mean her time in the courtroom.
    There are different ways to be effective in a courtroom. 
There are some lawyers that are very effective in a courtroom 
because they know how to fill the space with their personality. 
There are other attorneys that are good in the courtroom 
because they gain the confidence of the jurors, and that is the 
kind of trial lawyer that Roseann Ketchmark was. That is the 
kind of prosecutor she was.
    Because she was so good at her job, I designated her as the 
lead child homicide prosecutor in my office. Now, that is an 
enormous responsibility. And imagine the psychology of that 
job. Imagine the stress of every day knowing you had to open 
files and become very familiar with sets of facts that no one 
should ever have to read about, much less relive day in and day 
out as you prove to our criminal justice system that someone 
deserves to be locked up for killing a child.
    I was sad when she got another job, but it was a promotion 
and it is always encouraging when people you work with in your 
office are succeeding and moving on. And she went on to work 
for, as Senator Blunt mentioned, a Republican prosecutor in the 
adjoining county.
    He quickly realized that she was the kind of manager and 
prosecutor that could be a mentor, someone who could train 
young lawyers and who could help run his office, and she was 
the first assistant, which is the most important job--that is 
like a chief of staff in the Senate--in terms of making sure 
the office runs well.
    She did such a good job there that she was then recruited 
away to the U.S. Attorney's Office, where she has done 
remarkable work for 14 years under U.S. Attorneys that were 
appointed by Republican Presidents and U.S. Attorneys that were 
appointed by Democratic Presidents.
    The one thing that I always like to find out about when I 
am looking at candidates to have a lifetime appointment is how 
do the people who work with them feel about them, how do the 
lawyers that are on the other side of cases feel about them, 
how do judges view them. And in this case, Roseann Ketchmark is 
at the top of everyone's list. And these are from very liberal 
criminal defense lawyers who I disagree with a lot on many 
things to the most conservative Federal judges.
    Roseann has incredibly high references. And I am not sure, 
Senator, that you will have very many judges that will come 
before you, potential judges, judges that are seeking 
confirmation, that have been a lead lawyer in a jury trial over 
75 times. She has participated in more than 100 trials, and 
when you have been--and in front of 28 different judges.
    So Roseann Ketchmark knows a good judge when she sees it 
because she has been in a courtroom in front of 28 different 
judges, which allows you to view what works in a courtroom, 
what habits do judges have that are respectful of the 
litigants, what judges show how hard they have worked in terms 
of really understanding the issues in front of them, not just 
something that has been written by their staff, but something 
they fundamentally grasp and understand.
    So I think this is going to be a superior appointment, a 
superior confirmation. I really want to tell you how much I 
appreciate, Senator Grassley, you holding this hearing today. I 
know that it is hard to figure out who gets in front of the 
Committee and who does not at this point, and I know I speak 
for Senator Blunt that the State of Missouri is very grateful 
that you are giving her an opportunity to appear in front of 
you today.
    Thank you very much.
    Chairman Grassley. It is not our tradition to vote people 
out of Committee just because of two speeches like yours, but 
it probably means that they are going to have a smooth ride.
    [Laughter.]
    Chairman Grassley. Thanks to both of the Senators. Thank 
you very much.
    If the two people would come to the table and before you 
sit, normally I do not have people stand up to swear, but as 
long as you are standing up, let us do it this way.
    [Nominees are sworn in.]
    Chairman Grassley. Thank you. Both affirm that.
    Before I introduce Ms. Stoll, I will give my opening 
statement, because I wanted to defer to my Senate colleagues, 
because they are busy with other Committees and I thank them 
very much for their introduction of Ms. Ketchmark. And I will 
introduce Ms. Stoll in just a minute.

         OPENING STATEMENT OF HON. CHARLES E. GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Chairman Grassley. Today we will hear from two nominees to 
the Federal bench: Kara Stoll, nominated to be Circuit Judge 
for the Federal Circuit, and Roseann Ketchmark, nominated to be 
District Judge for the Western District of Missouri.
    Anybody that has statements to put in the record, the 
record will remain open for a few days for my fellow Senators 
to do that.
    I would now go to the introduction of Ms. Stoll, because, 
Ms. Ketchmark, I will not be introducing you because you have 
already been introduced so well.
    The nominee, Ms. Stoll, is currently a partner in the 
Washington, DC, office of Finnegan, one of the world's largest 
intellectual property firms.
    Ms. Stoll graduated from Michigan State University in 1991 
with a degree in electrical engineering. She worked as a patent 
examiner in the U.S. Patent and Trademark Office for 6 years.
    In 1997, Ms. Stoll graduated from Georgetown University Law 
Center. After graduation, she clerked on the Federal circuit 
for Judge Schall. Ms. Stoll joined Finnegan in 1998 as an 
associate, made partner in 2006. Her legal career has focused 
on the area of patent litigation.
    In addition to her patent litigation practice, she often 
appears on panels and gives lectures addressing certain 
developments of intellectual property law.
    In 2013, she was named a Washington, DC, quote, unquote, 
``Super Lawyer'' in intellectual property litigation.
    Ms. Stoll has also taught courses on Federal circuit 
practice and procedure and patent law and public policy at 
Howard University School of Law and George Mason University 
School of Law.
    Now, we will start with Ms. Stoll. Before you make your 
opening statement, you have an opportunity to introduce any 
family and friends or professional associates that you have 
with you that you want us to know about.
    Since there are not so many people here, you will not have 
to stand, but if you would raise your hand so we know who you 
are. Would you proceed? And then I will call on Ms. Ketchmark 
after Ms. Stoll makes her opening statement.

             STATEMENT OF KARA STOLL, NOMINEE TO BE
          A U.S. CIRCUIT JUDGE FOR THE FEDERAL CIRCUIT

    Ms. Stoll. Thank you, Chairman Grassley.
    I would like to first start by thanking President Obama for 
nominating me.
    I would like to thank Chairman Grassley, Ranking Member 
Leahy, and the Members of the Committee for scheduling this 
hearing. I am so grateful to be here and for your 
consideration.
    For introductions, I am fortunate to have lots of family 
and friends here with me to support me today and I would like 
to first introduce my husband, Tom Stoll, and thank him for his 
unending love and support.
    I would like to introduce our three children: Jackie, 
Braden, and Tessa. And I would like to introduce my parents, 
Jack and Jackie Fernandez, and thank them for teaching me the 
value of hard work and getting a good education.
    I would like to introduce my wonderful brother- and sister-
in-law, Bob and Suzanne Stoll, and my nephew, Michael Stoll, 
and thank them for their love and support.
    And last, but not least, I would like to introduce my 
wonderful assistant and friend for the past 14 years, Susie 
Plinsky, and my partner and mentor, Mike Jakes, and my many 
other friends and colleagues who are here from Finnegan, the 
United States Patent and Trademark Office, and the court.
    I am so grateful to have had the opportunity to work with 
and learn from them. And last, but not least, I would just like 
to thank any friends and family who are watching.
    Chairman Grassley. Thank you. Now, would you like to 
proceed with any statement you want to make? You do not have to 
make a statement, but if you want to, this is the time to do 
it.
    Ms. Stoll. I do not have a statement. Thank you.
    Chairman Grassley. Now, we go to Ms. Ketchmark. Before you 
do that, since we have not had a Member of the Minority speak 
yet and if you had a statement for the Minority or for 
yourself, I should give deference to you at this point.
    Senator Franken. You should.
    [Laughter.]
    Senator Franken. Oh, I have nothing to say.
    [Laughter.]
    Chairman Grassley. Now, Ms. Ketchmark.

        STATEMENT OF ROSEANN A. KETCHMARK, NOMINEE TO BE
   A U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF MISSOURI

    Ms. Ketchmark. Good morning, Chairman Grassley and the 
distinguished Members of the Committee. Thank you for the 
opportunity to appear before you today and for considering my 
nomination.
    I am honored and grateful to be nominated to this important 
position.
    I would also like to thank my Senators from the great State 
of Missouri, Senators Claire McCaskill and Roy Blunt, for all 
of their past and their ongoing support for me and for their 
kind introductions.
    With me today is my husband, David, and our three children. 
Our oldest is Nick, who is a second-year student, a biochem 
major, at the University of Missouri. Our daughter, Jill, is in 
the 8th grade. And our youngest, Josh, is in the 6th grade.
    Also here today is my brother-in-law, Michael Ketchmark, 
and his law partner, Scott McCreight. I am also delighted and 
honored to have Judge Gary Fenner with me today. He is a 
Federal District Judge with the Western District of Missouri.
    Again, thank you for considering my nomination and I look 
forward to answering your questions.
    Chairman Grassley. What we will do is we will do five 
rounds by order of people coming in, first recognizing Senator 
Tillis and then Senator Franken. I will start.
    I am going to start with Ms. Stoll. How do you expect your 
experience as a patent examiner at Patent and Trademark Office 
will impact your judicial decisionmaking process?
    Ms. Stoll. Thank you. I think that I have a wealth of 
experience that would help me in my position, were I lucky 
enough to be confirmed.
    That experience that I had at the Patent Office introduced 
me to concepts of patent law. I learned how to quickly learn 
new technology and to quickly and efficiently reach decisions. 
And I also have, as you mentioned, a lot of other experience, 
including representing plaintiffs and defendants. So I can 
understand both sides of the issues.
    Chairman Grassley. The second question to you: the American 
Invents Act created by the Patent Trial and Appeal Board. Post-
grant review proceedings which place appellate jurisdiction in 
the U.S. Court of Appeals for the Federal Circuit.
    Because this process is relatively new, the Federal circuit 
has considered and is expected to face a number of cases of 
first impression. If there were no controlling precedent was a 
dispositive on an issue with which you were presented, to what 
source would you turn for persuasive authority?
    Ms. Stoll. If I were fortunate enough to be confirmed, I 
would--and there were no controlling precedent, I would, of 
course, turn to the governing law, whether it be a statute or 
regulation, and I could also consult other sources if 
necessary. For example, we could review decisions that although 
are not binding, but might be advisory, from other circuit 
courts or in other areas of the law, but first and foremost, I 
would consult the statute and any other governing law.
    Chairman Grassley. I probably should have asked the next 
question before I just asked that one.
    What would be the principles that would guide you or what 
methods would you employ in deciding cases of first precedent?
    Ms. Stoll. Just to clarify, did you say cases of first 
impression?
    Chairman Grassley. Yes. I think I said impression wrong, 
but go ahead. Thank you for the correction.
    [Laughter.]
    Ms. Stoll. Thank you, Chairman Grassley.
    I would first look to whatever the governing law is. The 
Federal circuit often is hearing cases involving statutes, and 
so I would turn to the statute and look to the plain language 
of the statute.
    I could also consult decisions from other circuit courts or 
from the Supreme Court in analogous areas of the law or cases 
that might not be binding, but nonetheless could be 
instructive.
    Chairman Grassley. In a recent article co-authored by you, 
IP Litigator, when discussing the Federal circuit, you stated, 
quote, ``A Federal Circuit appeal requires the parties to move 
beyond recitation of technical arguments; thus, including in 
the PTAB record, where possible, facts for developing 
compelling equitable and/or policy arguments and then 
highlighting those facts on appeal can be important to the 
eventual outcome. The Federal Circuit must consider how its 
decisions will affect not only the present parties, but future 
litigants, as well.''
    I would like to have you elaborate on it. And then second, 
what weight will equitable and/or positive arguments play in 
your decisionmaking process?
    Ms. Stoll. Well, first of all, I would just like to say 
that I recognize that there is a difference between the role of 
an advocate and the role of a judge. And if I were fortunate 
enough to be confirmed, I would apply--I would, with full 
faith, apply the law to the facts to determine the correct 
outcome.
    I do not think that equitable considerations should factor 
into it if, when you apply the law to the facts, you have an--
you have the right outcome.
    Chairman Grassley. I am going to go to Ms. Ketchmark now. 
And if my colleagues will give me a little time over 5 minutes 
so I do not have to go back for a second round.
    Ms. Ketchmark, you served as a prosecutor for many years. 
Early in your career, you were profiled in a local newspaper 
article as rising star. That is quite a complimentary thing. In 
this article, you discussed your work on child molester and sex 
offender cases, which are often difficult cases to prosecute as 
they involve emotion with children and families.
    You were quoted as saying, quote, ``I don't enjoy 
punishing, yet consider what they do to the children,'' end of 
quote. Later on you said that, quote, ``Penitentiary doesn't 
help anyone,'' end of quote.
    So I would like to ask you about that particular comment. 
Could you please explain what you meant by that statement? For 
instance, do you believe a judge should balance seeking justice 
for victims and punishments with the need of rehabilitation for 
offenders?
    Ms. Ketchmark. Thank you, Chairman Grassley.
    The penitentiary is very valuable for a number of reasons. 
Statistically, it may not have the highest rehabilitation value 
that we would hope, but it does serve to punish. It does serve 
to deter and it does help the victims for just making them--
securing punishment for the victims.
    So I do want to make sure that, and I think my record 
reflects that, I think prison systems are very valuable and 
needed, especially in child molestation cases.
    Chairman Grassley. If confirmed, are there any crimes or 
types of offenders that you would have difficulty sentencing to 
a long prison term if the statute mandated one?
    Ms. Ketchmark. No.
    Chairman Grassley. In another article, you mentioned that 
prosecutors sometimes agree to, quote, ``weak plea deals to 
save children the trauma of trial,'' end of quote. I can 
imagine, as a prosecutor, these are difficult decisions that 
you or other people have to make.
    If confirmed, you will be presented with plea deals from 
time to time that you will need to accept or reject. How would 
you balance these considerations as a judge?
    Ms. Ketchmark. Thank you, Chairman Grassley.
    There are a number of factors that go into plea 
negotiations. Regarding crimes against children and sex crimes, 
one of the factors is the trauma, especially of children, 
testifying in a court proceeding. Disclosing their first sexual 
experience to jurors is very scary.
    I do think that that is a factor in plea negotiations. I do 
not think that children testifying is particularly therapeutic. 
So I do believe that is a valid consideration when you discuss 
dispositive dispositions of criminal cases.
    Chairman Grassley. For both of the nominees, I will have 
additional written questions and other Members that cannot be 
here will probably have additional questions for answer in 
writing.
    We usually do not schedule to be on the agenda until we get 
those responded or you could be on the agenda, but maybe not 
taken up until you have responded to all those questions.
    Senator Tillis, I was making a judgment first come, first 
answer, based upon what we used to do in the Finance Committee 
when I was Chairman. The precedent here dictates that I go to 
Senator Franken before you.
    Senator Tillis. Thank you, Mr. Chairman. I recognize 
Senator Franken was here far later than me, but I do think it 
is appropriate he goes first.
    [Laughter.]
    Senator Franken. I ask that that be stricken.
    [Laughter.]
    Chairman Grassley. So ordered.
    Senator Franken. Thank you, Mr. Chairman.
    My first question is for Jackie, Braden, Tessa, Nick, Jill 
and Josh.
    [Laughter.]
    Senator Franken. If your mother is confirmed, would you 
refer to her, as you are supposed to, as Your Honor?
    [Laughter.]
    Senator Franken. I got a ``no'' from Josh and, for the 
record, no response from the others.
    [Laughter.]
    Senator Franken. Ms. Ketchmark, congratulations on Josh.
    [Laughter.]
    Senator Franken. Ms. Stoll, congratulations on your 
nomination. One of the issues we have been wrestling with here 
in the Senate is patent litigation.
    In the last year, the Supreme Court has issued several 
rulings on patents that some have suggested may have the effect 
of curbing some of the bad practice we have seen from patent 
trolls.
    Those decisions, such as the Court's decision in Alice 
Corporation v. CLS Bank, tighten requirements for obtaining 
certain patents and make it easier for people to challenge the 
validity of patents. And we have seen reports that the number 
of new lawsuits filed by patent holders for infringement have 
dropped.
    Based on your experience in patent litigation, do you agree 
with those who believe that the Court's recent decisions have 
resulted in fewer complaints being filed? What other factors do 
you believe may be contributing and to what extent, if any, do 
you see these developments helping small businesses and 
retailers affected by the abusive litigation practices?
    Ms. Stoll. Thank you for your question, Senator.
    I am familiar with those Supreme Court cases, of course, 
and I am also familiar with the problems that you are 
mentioning. And I can tell you that if I were fortunate enough 
to be confirmed, I would apply Supreme Court precedent 
faithfully to the facts before me. And I also would apply any 
legislation that Congress enacted faithfully to the facts 
before me.
    Senator Franken. But you have no opinion on whether these 
decisions have tamped down at least a little bit what the 
effect of has this been.
    Ms. Stoll. I do think that those decisions have made it 
easier to show that patents are invalid and--or that they are 
not eligible under--for patent validity under 35 U.S.C. Section 
101.
    I do think that it--those decisions have made it so 
defendants have an easier time to present in their litigation 
against patent owners, but I do not know whether there has been 
a reduction in litigation. And, again, I would just emphasize 
that I would follow whatever law Congress enacted.
    Senator Franken. Sure. Ms. Ketchmark, as the Chairman said 
earlier, in your career as a prosecutor, you tried crimes 
against children and sexual assault cases on children.
    As I understand it, these cases can pose unique challenges 
as law enforcement and victims' advocates work together to 
bring the perpetrator to justice while countering the impact of 
the assault on the victim and it is impossible to overstate the 
devastating effect that these assaults have on the victims.
    In many parts of the country, prosecutors have recognized 
the value of using a coordinated multidisciplinary approach in 
these cases to keep victims safe and assist them in 
participating in the prosecution. Child advocacy centers, or 
CACs, are the center of the strategy, epicenter of it. These 
centers bring together law enforcement, child services, mental 
health professionals--I do not have to tell you this. I am 
saying it for everybody else--to coordinate treatment for the 
victims with the investigation and prosecution of child abuse 
cases, and I understand that you served on the board of a CAC 
for many years; is that correct?
    Ms. Ketchmark. Yes, sir.
    Senator Franken. Based on your own experiences in the 
field, can you explain how CACs and other resources for 
survivors of sexual assault and domestic violence aid in the 
prosecution of these crimes and why is it so important that 
local law enforcement and advocacy organizations have resources 
like CACs?
    Ms. Ketchmark. Thank you, Senator, for the question.
    CACs--I am, obviously, an advocate of child advocacy 
centers. I currently sit on the advisory board at the child 
advocacy center in the northen part of Kansas City.
    The focus of the child advocacy centers is to conduct a 
forensic interview of the children. That is a one-time 
interview that is coordinated with all members of, as you 
mentioned, law enforcement, prosecution, counseling, medical, 
and treatment disciplines so that the children are not going 
from office to office repeating the trauma that they have been 
through.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Grassley. Thank you, Senator Franken.
    Now, Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Ms. Ketchmark and Ms. Stoll, congratulations. Good to see a 
proud group of supporters back behind you, as well.
    I do have to tell you, in a relative short political career 
of 8 years, this has already been a remarkable hearing because 
it is the first time I have ever heard attorneys waive their 
right to be able to make a long written statement.
    [Laughter.]
    Senator Tillis. So that already reinforces my positive 
predisposition toward both of you before you came in here.
    In all seriousness, congratulations. I look forward to 
supporting your nomination.
    Ms. Stoll, I have just a few questions. One of them relates 
to the disturbing reports we have heard about the backlog of 
veterans' claims that will come before your bench.
    I know that the statutes limit the scope of review for the 
Federal circuit when they are hearing veterans' appeals. They 
give you a fair amount of latitude to set aside regulations 
that are arbitrary, capricious, and I think, hopefully, that 
means to streamline the process.
    I think in 2013, about 13 percent of all the cases you all 
heard were veterans' appeals, veterans' claims appeals.
    Have you had an opportunity to look into this process and 
do you have any thoughts or ideas on how we may be able to--
hopefully a lot will be cleared in pre-appeal, but the ones 
that ultimately have to come before you, any thoughts on things 
we can do to make this a priority and help clear the backlog 
and do the right thing for the veterans?
    Ms. Stoll. Thank you for your question and your interest in 
that area of the law.
    I have represented veterans in various pro bono veterans' 
appeals before the Federal circuit and it is an area of law 
that is important to me.
    I am not that familiar with the problem you have mentioned, 
but I can tell you that, if I were lucky enough to be 
confirmed, I would do my best to learn everything I needed to 
fairly and impartially decide those cases and do everything I 
need to get totally up to speed on the veterans' appeals.
    Senator Tillis. I hope you will make it a priority. In a 
State that has as many veterans as some States have citizens, 
it is personally very important to me and it is obviously 
important to all veterans across the country.
    I only have one other question. And, Ms. Ketchmark, I am 
not asking you questions for a lack of interest, but I am 
deferring to my Members and their very high regard for you and 
since the matters that would come before you would not involve 
North Carolina, I am just focusing a little bit more on Ms. 
Stoll.
    Ms. Stoll, I only have one final question. I think your 
experience in intellectual property and patents is 
extraordinary and I think it will be great experience to bring 
to the bench. I did have a question about any experience that 
you may have with respect to international trade or areas where 
your past experience may be relevant.
    Ms. Stoll. I did clerk at the Federal circuit and during 
that time I was introduced to other areas of the court's 
jurisdiction, including international trade. I think that 
because I have such an extensive background in patent law, I am 
hopeful that I will be able to start running quickly with those 
kinds of cases and that the other areas of the court's 
jurisdiction, including international trade, I will devote all 
my efforts to try to get up to speed as quickly and efficiently 
as possible.
    Senator Tillis. Thank you. And by the way, I have kids and 
I have for 8 years tried to get them to call me Your Honor and 
they will not do it either. So you are right, Josh. Thank you.
    Chairman Grassley. Are you done? Before you folks leave, I 
want to bring up something to Ms. Stoll. This is not a 
question. It is not anything you have got to do with.
    But, you know, from the Merit Service Protection Board, 
appeals go to the circuit you are going to be on. I have been a 
long-time advocate of whistleblower protection and so that 
appeal goes out.
    So I want to make you aware of something and there is no 
implication in my statement that you do not have to follow the 
law. But if you look statistically at the number of 
whistleblower cases that have been appealed to this circuit, 
whistleblowers have a miserable record of winning. And I do not 
know whether--I am just giving you a feeling that there is not 
the proper--I know you are going to tell me, well, they are 
just interpreting the law against the facts.
    But I think there ought to be more careful, based on the 
statistics of whistleblowers losing so many cases before it, 
that there is a proper consideration of the importance of 
whistleblowers in our system of government.
    I guess I will leave it at that. That is not a lawyerly way 
of expressing my view, but it is a political way of expressing 
my view and I hope that you will be very careful about how you 
handle whistleblower cases.
    Ms. Stoll. Thank you, Chairman Grassley, for your interest 
in that important area of the law. I have no background in 
Whistleblower Protection Act, but I can tell you that, if I am 
fortunate enough to be confirmed, I will do what I can to 
faithfully apply the statute and award protection warranted.
    Chairman Grassley. I want you to know that I did not expect 
you to give an answer now and whatever you said now will not be 
used against you.
    [Laughter.]
    Chairman Grassley. Thank you very much. You are dismissed. 
Committee meeting adjourned. We will get questions to you 
within 1 week. So all the Members be aware of the 1-week limit.
    The meeting is adjourned.
    [Whereupon, at 10:40 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

              Questions Submitted to Roseann A. Ketchmark
                     And Kara Stoll by Senator Cruz

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

              Questions Submitted to Roseann A. Ketchmark
                    And Kara Stoll by Senator Vitter

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

NOMINATIONS OF HON. DALE A. DROZD, NOMINEE TO BE A U.S. DISTRICT JUDGE 
FOR THE EASTERN DISTRICT OF CALIFOR-NIA; HON. ANN DONNELLY, NOMINEE TO 
BE A U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF NEW YORK; LAWRENCE 
    J. VILARDO, NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE WESTERN 
 DISTRICT OF NEW YORK; AND, LaSHANN DeARCY HALL, NOMINEE TO BE A U.S. 
          DISTRICT JUDGE FOR THE EASTERN DISTRICT OF NEW YORK

                              ----------                              


                         WEDNESDAY, MAY 6, 2015

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:18 p.m., in
Room SD-226, Dirksen Senate Office Building, Hon. Thom Tillis 
presiding.
    Present: Senators Tillis, Schumer, Klobuchar, and Franken.

             OPENING STATEMENT OF HON. THOM TILLIS,
        A U.S. SENATOR FROM THE STATE OF NORTH CAROLINA

    Senator Tillis. Good afternoon, everyone. We are going to 
go ahead and get the Committee started. I want to welcome you 
all to what is, I believe, the fifth nominations hearing by the 
Judiciary Committee.
    Today we will hear from four nominees to the Federal 
District Courts: Dale Drozd, to be United States District Judge 
for the Eastern District of California; Ann Donnelly, to be 
United States District Judge for the Eastern District of New 
York; Lawrence Vilardo, to be the United States District Judge 
for the Western District of New York; and, LaShann DeArcy Hall, 
to be the United States District Judge for the Eastern District 
of New York.
    Welcome to you all and especially a welcome to Ms. Hall's 
little daughter out there. Thank you for joining us.
    I know your family must be very proud. You should be. This 
is quite an honor for you to come before this Committee for the 
nominations process.
    I do have a statement from the Chairman that I will submit 
for the record.
    [The prepared statement of Chairman Grassley appears as a 
submission for the record.]
    Senator Tillis. At this time, I believe that we will go 
directly to Senator Boxer. So, Senator, if you would like to 
introduce your nominee.

STATEMENT OF HON. BARBARA BOXER, A U.S. SENATOR FROM THE STATE 
OF CALIFORNIA, INTRODUCING HON. DALE A. DROZD, NOMINEE TO BE A 
   U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much, Members of 
the Committee, nice to be here. I am honored to be here.
    Before I introduce, formally, Judge Drozd, and introduce 
you to his family, I want to thank you so much for this, 
because we have got a serious problem in the Eastern District. 
It has been declared a judicial emergency. Cases are piling up. 
We do not have enough judges to review them.
    This is an area of the State that is growing rapidly. And 
according to the Judicial Conference, there are 1,000 cases per 
active judge in the Eastern District--1,000 cases per active 
judge--one of the highest caseloads in the Nation.
    With only one acting judge sitting in Fresno, judges in 
Sacramento have had to take over some of the civil cases. Now, 
this is a district where the Judicial Conference has 
recommended doubling the number of judgeships to just handle 
the current caseload.
    We just cannot allow this seat to be vacant any longer 
because as we all know, justice delayed is justice denied, and 
that is happening to too many Californians.
    Fortunately, we have a real consensus candidate for this 
vacancy and I would ask Judge Drozd and his wife, Janette, and 
their two sons, Doug and Paul, to stand, please, and just wave 
to the Members.
    We all know how important family members are to those who 
seek public office and we welcome them.
    The Judge has been serving as a magistrate judge on the 
U.S. District Court for the Eastern District since 1997. Since 
2011, he has served as Chief United States Magistrate Judge for 
the Eastern District.
    Thirty-five years ago he served as a law clerk to Judge 
Lawrence Karlton, Judge of the United States District Court for 
the Eastern District. Prior to taking his position as a judge, 
he worked in private practice in our State's capital, 
Sacramento.
    The Judge received his bachelor's degree in 1977 from Cal 
State University at San Diego and he won his law degree from 
the University of California at Los Angeles School of Law, 
where he was a member of the Order of the Coif.
    His 18 years on the bench serving the people of the Eastern 
District and his previous years in private practice make him an 
excellent candidate to fill this vacancy.
    In closing, I am proud to be here today with Judge Drozd, 
who received a unanimous ``well qualified'' rating from the 
American Bar Association. I would like, again, to thank this 
Committee for holding this hearing and moving forward on this 
important nomination, and I look forward to working with you as 
the process moves forward.
    Mr. Chairman, thank you for your courtesy.
    Senator Tillis. Thank you, Senator Boxer. I know you have a 
very busy schedule. Of course, you are welcome to stay as long 
as you can, but feel free to leave when you deem it necessary.
    Senator Schumer.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
 FROM THE STATE OF NEW YORK, INTRODUCING LAWRENCE J. VILARDO, 
NOMINEE TO BE A U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF 
NEW YORK, AND HON. ANN DONNELLY, NOMINEE TO BE A U.S. DISTRICT 
           JUDGE FOR THE EASTERN DISTRICT OF NEW YORK

    Senator Schumer. Thank you. Good morning. Good afternoon. 
Time flies when you are having fun.
    Thank you, Chairman Tillis, Senator Franken, Senator 
Gillibrand, my colleague in New York, and Senator Boxer, my 
dear friend since 1982 when we both were in Congress together.
    I want to thank Chairman Grassley for scheduling this 
hearing. These nominees have been waiting patiently for a long 
time. I am thrilled that the Committee is finally moving 
forward with their nominations. It is important to them, but 
more important to the districts they serve, which need them 
desperately.
    Three of the four nominees before our Committee have been 
nominated for seats designated as judicial emergencies. Now, 
that does not mean something like there are a whole lot of 
fires or robberies. It means we do not have enough judges on 
the bench to cover the cases and the backlogs are horrible.
    The fourth, Mr. Vilardo, from my home State, from Buffalo, 
is nominated to the court where there are no currently active 
judges sitting. That is how bad this backlog is. Buffalo has 
one of the busiest Federal court systems in the country and 
also one of the worst backlogs of cases. It can take 5 years--5 
years for a case to go to trial. Imagine how long you would 
have to wait for justice. It is a serious issue.
    So I am grateful, Mr. Chairman, that we are taking a step 
forward and addressing it today. There are no more important 
values than the speedy application of justice and the right to 
petition the Government for redress of grievances and, frankly, 
neither of these can be achieved without judges on the bench.
    Western New York has a backlog of cases and a current 
dearth of judges. We need a candidate of Mr. Vilardo's 
experience and quality to get approved by this body with all 
due speed so this issue can be addressed.
    So now let me turn to the introduction of the two 
outstanding lawyers whom I have had the pleasure and privilege 
of recommending to the President for nomination.
    First, Lawrence J. Vilardo, for the Western District, which 
is mainly Buffalo, Rochester, and the western section of New 
York. And many people from New York City and its area forget 
that we have a huge population Upstate and the Western District 
has millions, certainly over 2 million people who live there, 
bigger than some States.
    Mr. Vilardo is a true Buffalonian, you can tell just by 
talking to him, and he is going to be a credit to the bench in 
his hometown. He received his bachelor's degree from Canisius 
College, a great Western New York Institution that I have had 
the pleasure of visiting many a time. He graduated summa cum 
laude.
    He then attended Harvard Law School, graduated magna cum 
laude. Having gone there, I know how hard it is to graduate 
magna cum laude at Harvard Law School. I did not.
    [Laughter.]
    Senator Schumer. While in law school, he was an editor of 
the Harvard Law Review, a distinction he shares with our 
President.
    Following his graduation from law school, Mr. Vilardo 
clerked for the Honorable Irving Goldberg of the Court of 
Appeals for the Fifth Circuit in Dallas, Texas, but fortunately 
for Western New York, he quickly went back home and founded one 
of the leading law firms of the region.
    Throughout his distinguished career, Mr. Vilardo has always 
made time to give back and help mentor and inspire younger 
lawyers. Prior to starting his own firm, he served as an 
appellate practice faculty member at SUNY Buffalo School of Law 
and as a constitutional law faculty member at Canisius Law 
School.
    He also served as a senior editor for the American Bar 
Association's litigation journal. He is a frequent speaker on 
appellate justice and legal ethics, among other topics, at law 
presentations and bar association seminars.
    Mr. Vilardo's credentials are certainly excellent, 
something I look for in all judges. I look for three criteria 
when I choose judges. They are excellent, they should be 
legally excellent. I do not want too many political hacks or 
any political hacks on the bench. They should be moderate. As 
you might imagine, I do not like judges too far right, but I 
also do not like them too far left because judges at the 
extremes tend to want to make law rather than follow the law. 
And I look for diversity. When we can have a diverse bench, it 
is a great thing and young kids can look up to that bench and 
aspire to be on it one day themselves.
    So he meets the criteria of excellence and of moderation 
and he is respected by practitioners and judges across the 
political and ideological spectrum for his even temperament and 
fair-minded way of thinking. And he is fundamentally a classic 
Buffalonian. I just love Buffalo. I love going up there.
    What is a classic Buffalonian? Salt of the earth, honest, 
grounded. Buffalo is in Larry's bones. It is part of who he is. 
And like so many other people from the region, the city has 
made him tough, level-headed, fair, and decent.
    So Western New York will be incredibly lucky to have him on 
the bench.
    Now, let me turn to Judge Ann Marie Donnelly, who currently 
serves in the New York State Courts. Judge Donnelly is a 
graduate of the University of Michigan, received her JD from 
Ohio State University College of Law. Upon graduation, Judge 
Donnelly joined the New York County DA's office, one of the 
finest State Prosecutor Offices in the Nation.
    She served for a quarter of a century and her reputation 
there is legendary. When you mention that you know Ann Donnelly 
to anyone who has served in DA Morgenthau's office, one of the 
finest DA's offices in the country, they say she was one of the 
best. She is really admired, even though she has been out of 
that office for quite a while now. She accumulated recognitions 
and awards along the way. She worked in the Appeals Bureau and 
appeared regularly in the Appellate Division and the New York 
Court of Appeals.
    In 1989, she was assigned to the Major Offense Career 
Criminal Program, a specialized bureau that targeted repeat 
offenders and violent felons. And 2 years later, Judge Donnelly 
was promoted to senior trial counsel and became a member of the 
Sex Crimes Prosecution Unit.
    In 2005, she was named bureau chief of the Family Violence 
and Child Abuse Bureau; and, in 2009, she joined New York 
State's Court of Claims.
    Over the past 6 years, her assignments have the supreme 
courts, which is what New York calls its trial courts, of three 
different counties, including New York County, where she 
currently serves hearing criminal cases.
    Her stellar academic record, her lengthy career in public 
service, years she has spent honing her judicial acumen, all 
clearly qualify Judge Donnelly as an excellent candidate for 
the bench.
    However, Judge Donnelly has more than just a brilliant 
resume. She is, at her core, a kind, thoughtful and 
compassionate person. Anyone who knows her or who has 
interacted with her even briefly knows she is fair and open-
minded, has the temperament to make her well suited to be a 
Federal judge. She cares about the law and the legal 
profession. In addition, her many years of judicial and 
government service, in addition to those, she has helped 
cultivate the next generation of lawyers. She is a fellow in 
the American College of Trial Lawyers, regularly judges mock 
trials Moot Court competitions. She serves as a judge for the 
Jerome Prince Memorial Moot Court competition at Brooklyn Law 
School. She is even on the advisory board for the Thurgood 
Marshall mock trial program. That is for seventh and eighth 
grade students as they prepare and try a criminal case.
    I also must add, Mr. Chairman, with the confirmation of 
Judge Donnelly and Ms. DeArcy Hall from the Eastern District, 
our bench will remain one of the most diverse judicial 
districts in the country.
    I want to say one more thing. She has a great family, 
because I know Ann well, and she will introduce them, but it is 
a great sight to see them all from all over, Pennsylvania, 
Massachusetts. She was raised in Ohio. Her father was a mayor. 
He is looking down from heaven and very proud, I know that.
    So I am going to ask just the whole greater Donnelly family 
to stand. You will see it is a great sight. Please get up, all 
you Donnellys. There they are in their glory and they are a 
great family. I know many of them. So nice to see them all here 
and so proud of Ann's great accomplishment today.
    So let me just say, Mr. Chairman, you can see these are two 
immensely qualified candidates for the Federal bench. They are 
erudite, they are experienced, they are deeply respected 
throughout New York. Beyond that, each one has a spirit for 
public service that shines through in their respective roles as 
teachers and leaders in the legal community.
    I hope, I pray that we can move quickly to move them 
through the Committee and onto the Senate floor.
    Finally, I will leave the introduction to Senator 
Gillibrand, who nominated Ms. DeArcy Hall, but I just want to 
acknowledge that this is another terrific nominee and I commend 
Senator Gillibrand for recommending her.
    Thank you, Mr. Chairman. Thank you to our judicial 
candidates and for their greater families that have come along 
to share their joy.
    Senator Tillis. Thank you, Senator Schumer.
    Senator Gillibrand, you may introduce your nominee.

 STATEMENT OF HON. KIRSTEN E. GILLIBRAND, A U.S. SENATOR FROM 
THE STATE OF NEW YORK, INTRODUCING LaSHANN DeARCY HALL, NOMINEE 
  TO BE A U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF NEW 
                              YORK

    Senator Gillibrand. Thank you, Mr. Chairman. Thank you to 
Senator Schumer for his excellent introduction of our nominees 
today.
    I have the very special honor to be here to introduce 
LaShann DeArcy Hall and offer my strong support for her 
nomination to the United States District Court for the Eastern 
District of New York.
    I would like to thank President Obama for acting on my 
recommendation and nominating another superbly qualified female 
jurist to the Federal bench.
    Ms. DeArcy Hall's credentials are outstanding and her 
experiences as a lawyer are varied and diverse. Our country 
would be stronger with women like LaShann DeArcy Hall serving 
on the Federal bench.
    Ms. DeArcy Hall is currently a partner at the international 
law firm of Morrison & Foerster, where she specializes in high 
stakes, complex commercial litigation. She has years of 
valuable experience as a public servant, including time serving 
as a commissioner with the New York State Joint Commission on 
Public Ethics, which oversees New York State's and executive 
and legislative branches' compliance with ethics and lobbying 
laws and regulations.
    In 2011, Ms. DeArcy Hall was appointed by Mayor Bloomberg 
as a commissioner of the New York City Taxi and Limousine 
Commission. She also served as a member of the Board of 
Trustees for the Neighborhood Defender Service of Harlem and 
she is a member of the Howard University School of Law Board of 
Visitors.
    She is a graduate of Howard University School of Law and 
she served as a member of the United States Air Force. In other 
words, LaShann DeArcy Hall is a highly accomplished lawyer who 
has chosen to use her intellect and skills for the greater good 
of public service.
    For her work in promoting diversity in the legal 
profession, Ms. DeArcy Hall was honored by the New York City 
Bar Association as the recipient of the 2009 Diversity Champion 
Award. And if her nomination is approved, her presence would 
add much needed diversity, another female voice, to our Federal 
bench.
    I have no doubts that Ms. DeArcy Hall's experience and 
qualifications make her a superb candidate for this judgeship. 
She is dedicated to serving the citizens of New York and she is 
committed to making her city, State, and Nation more fair and 
just.
    LaShann DeArcy Hall will be an excellent jurist on the 
Federal bench and I was very honored to recommend her for this 
position and I urge swift approval of her nomination.
    Thank you, Mr. Chairman. Thank you, Committee Members.
    Senator Tillis. Thank you, Senator Gillibrand. Again, I 
know you are busy. So please feel free to leave when you need 
to.
    If we could have the nominees come forward and stand. If 
you will please raise your right hand.
    [Nominees are sworn in.]
    Senator Tillis. You may be seated.
    Before we get started, we will provide you all with an 
opportunity, if you wish, to make an opening statement and to 
introduce your family. We will actually just start from left to 
right to make it easy. So we will start with you, Mr. Drozd.

        STATEMENT OF HON. DALE A. DROZD, NOMINEE TO BE A
        U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF
                           CALIFORNIA

    Judge Drozd. Thank you, Senator.
    I would first like to take the opportunity to thank Senator 
Boxer for her very gracious introduction, as well as her 
recommendation of my nomination to the President.
    I would also like to thank Chairman Grassley and Ranking 
Member Leahy, as well as the rest of the Committee, for 
scheduling this hearing, as well as to Senator Boxer's staff, 
her judicial selection committee, and Senator Feinstein and her 
staff; and, finally, of course, to the President for bestowing 
on me the honor of the nomination itself.
    I am lucky enough to have with me quite a few family and 
friends today, many of whom made their way all the way from 
California. The most important, of course, my wife of 32 years, 
Janet Vine, who has steadfastly supported me and our sons in 
everything that we have ever done.
    Also, my son Doug, our oldest, who graduated from Claremont 
McKenna College and works in Sacramento, is here with us, as is 
my son, Paul, who was able to take a few days off of his final 
quarter at Cal-Poly Pomona and catch the red-eye flight and get 
in this morning.
    I also have with me my sister-in-law and brother-in-law, 
Dave and Amanda Hall from West Sacramento; my cousin, 
Christine, and her husband, Rich, from Phoenix, Maryland; my 
niece, Lauren, who is attending graduate school here at 
Georgetown University; our cousin, Jennifer Nebo, who, along 
with our cousin, James, her husband, and their newborn, Carter, 
reside here in Washington, DC; and, finally, our longtime 
family friend from here in Washington, Bobby Masally, is also 
here with us.
    Not here, but I know watching on the webcast today, are my 
brother, Don, in Orange County, California, and his entire 
extended family in the Pacific Northwest; my sister, Lisa 
Tobey, along with her family, from Minnetonka, Minnesota, I 
know is watching, as are all of them.
    My brothers and sisters-in-law, Jimmy, Janice, Harry, and 
Diane back in Sacramento; and, all of my hardworking 
colleagues, chamber staff, and clerk's office staff in the 
Eastern District of California.
    Finally, with me in spirit here today I know are my mom, 
who passed away in 2013, as well as my dad, who passed away in 
2004. My dad was quite an accomplished individual. He served on 
a destroyer escort at the end of World War II, came out of the 
Navy in Southern California, went to work as a plumber at the 
LA County USC Medical Center and eventually became the 
executive director of the entire hospital. I know they would be 
proud.
    Senator Tillis. Thank you, Judge Drozd. I know that from 
time to time, when I am on C-SPAN, my mom still posts on 
Facebook how proud she is. So, I am sorry that your parents are 
not here to see this, but congratulations, Judge Drozd.
    Judge Donnelly.

 STATEMENT OF HON. ANN DONNELLY, NOMINEE TO BE A U.S. DISTRICT 
           JUDGE FOR THE EASTERN DISTRICT OF NEW YORK

    Judge Donnelly. Thank you, Senator Tillis. I would like to 
thank Chairman Grassley and Ranking Member Leahy for scheduling 
this hearing.
    Senator Schumer, I so appreciate that kind introduction.
    I would like to thank the President for the honor of this 
nomination.
    I would like to congratulate my fellow nominees on their 
nominations and their accomplished careers.
    I am very lucky, as Senator Schumer said, to have quite a 
few people here with me today. First, is my husband of 30 
years, Michael Toth. We are here with our--we are very proud of 
our two daughters, Rebecca Toth and Margaret Toth. They are 
here with their boyfriends. Maggie is here with Andy Worley and 
Becky Toth is here with Dan Jones.
    My mother, my wonderful mother is here from Ohio, Mary 
Donnelly. My sister, Sarah Hopkins, is here with her husband, 
Dr. Jeffrey Hopkins, and their three wonderful girls, Callie 
Hopkins, Josie Hopkins and 5-year-old Jane Hopkins.
    My brother, Dr. Thomas Donnelly, and his wife, Dr. Heidi 
Donnelly, my beloved sister-in-law, are here with their 
wonderful daughter, Imelda Donnelly. My dear friend, Audrey 
Moore, is here, as is my dear friend and mentor, Linda 
Fairstein.
    My two brothers, Bill Donnelly and John Donnelly, are back 
in Ohio with their families. And my wonderful mother-in-law, 
Mary Toth, is in Michigan.
    I would also like to acknowledge my wonderful colleagues on 
New York State Supreme Court and for all of their guidance and 
friendship in my time as a judge.
    And finally, I would like to mention two people that I wish 
very much were here, my wonderful father-in-law, Edward Toth, 
and my father, Jack Donnelly, who would have had an excellent 
time at this hearing and I know that he is--I know that he is 
watching.
    And I appreciate the opportunity to appear before you and I 
look forward to answering your questions.
    Senator Tillis. Thank you, Judge Donnelly.
    Mr. Vilardo.

        STATEMENT OF LAWRENCE J. VILARDO, NOMINEE TO BE
       A U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF
                            NEW YORK

    Mr. Vilardo. Thank you, Mr. Chairman. And thank you to the 
Members of the Committee, especially Chairman Grassley and 
Ranking Member Leahy, for giving me an opportunity today that 
until now I did not even dare to dream about.
    I would like to thank the President for nominating me, and 
I would like to especially thank Senator Schumer for that very 
warm and generous introduction and also for having the 
confidence in me to recommend me to the White House.
    With me today is the love of my life, my wife of 32 years, 
Jeanne Vilardo; our daughter, Dr. Brigid Vilardo Lyons, who is 
a child psychologist practicing in Western New York, and her 
husband, Patrick Lyons, who is more like a son than a son-in-
law and is working with the Social Security Administration in 
Western New York.
    Our daughter, Lauren Vilardo is here. After 2 years 
volunteering with the Jesuit Volunteer Corps, Lauren decided 
that she wanted to serve under-served populations by working in 
the medical profession. And so she is studying to be a doctor 
by taking the biology and chemistry classes that are required 
for that. She was a physics major in college at the University 
of Buffalo.
    And also our son, Alexander Vilardo, who is working as a 
volunteer this year at his and my alma mater, Canisius High 
School, as part of their alumni volunteer corps. Alexander will 
attend law school at the University of Buffalo this fall.
    Also, my nephew is here from New Jersey, Carroll Legg, and 
today is his birthday. So happy birthday, Carroll.
    With me today are some of my very closest friends, former 
Ambassador Howard Gutman and his wife, Dr. Michelle Loewinger. 
From the class of 1973 at Canisius High School: Jim Shed, John 
McGrath and Bill Parachek.
    And a recognition of a few people who are not here. First 
and most important, my parents. Both of them are no longer with 
us. Neither of them had any more than a high school education, 
but both of them had an appreciation of how important education 
is, so that they insisted that their four children attend 
college and they encouraged us to go even further than that. I 
know they are watching from a better place.
    I would also like to acknowledge, in that regard, my 
brothers, Mark Vilardo, Dr. Joe Vilardo, and Dr. Michael 
Vilardo.
    I would also like to acknowledge my in-laws, Mr. and Mrs. 
Carroll Gambino, who are watching on the Internet, if they can 
figure how the computer works.
    [Laughter.]
    Mr. Vilardo. And I would also like to acknowledge all my 
family and friends back in Buffalo who are watching, especially 
my partners, our associates, and the staff at the best law firm 
anyone could dream about working at, Connors & Vilardo.
    Thank you, Mr. Chairman.
    Senator Tillis. Thank you, Mr. Vilardo. And I know I speak 
on behalf of all Americans for thanking Buffalo for the chicken 
wing.
    [Laughter.]
    Senator Tillis. Football has never been the same.
    Ms. Hall.

STATEMENT OF LaSHANN DeARCY HALL, NOMINEE TO BE A U.S. DISTRICT 
           JUDGE FOR THE EASTERN DISTRICT OF NEW YORK

    Ms. Hall. Thank you, Senator Tillis. I would like to thank 
Chairman Grassley, Ranking Member Leahy, and the entire 
Committee for scheduling this hearing today.
    My heartfelt thanks go to Senator Gillibrand for her 
recommendation and for her kind introduction, and as well to 
Senator Schumer for his support.
    Of course, I must extend my thanks, as well, to President 
Barack Obama for the honor of his nomination.
    I hope that you will indulge me just a few minutes more as 
I recognize my family and friends.
    Thank you to my husband, Courtney Caesar Hall, for his 
unyielding support through all of my endeavors, personally and 
professionally. To my greatest gift, my daughter, Jayden Hall, 
who reluctantly missed chess class to be here today.
    To my inspiration and my best friend, my mother, Patricia 
DeArcy. To my stepchildren, Terrence, Rachel, and Alexander 
Hall. My sister, Motique Iudeli, and my mother-in-law, Doris 
Hall.
    I would also like to say thank you to my dear friends who 
are here today, Kedric Payne, Monica Azare, and Saee Muzumdar. 
As well, to my partners and colleagues at the wonderful law 
firm of Morrison & Foerster, including my friend and partner, 
Jamie Levitt, my colleagues, Monica Castro and Joanna Zdanys, 
who are each here today.
    I must also extend a thank you to the entire Howard 
University School of Law family, many of whom came here today 
to support me, including my classmates, Eugene Akers, Aaron 
Taylor, Brandy Harden, Zahai Marshall, and Tamika Taylor, as 
well as Dean Coombs, Dean Mageahy, and my trial ad professor, 
Professor Goode.
    Finally, a thank you to all of my friends and family who 
have supported me personally and professionally throughout the 
years, many of whom are watching these proceedings from home.
    Thank you.
    Senator Tillis. Thank you all. And I would tell all the 
family and friends, again, welcome. I know it is a proud moment 
for you. It should be.
    Judge Drozd, I am going to start with you on questions. You 
presided over Greene v. Solano County Jail, a case where the 
maximum security inmate claimed that not being allowed to 
attend religious services was a violation of his religious 
liberty under the Religious Land Use and Institutionalized 
Persons Act and the First Amendment.
    I would like to have you focus your analysis under that 
Act. You held that not being allowed to attend religious 
services was not a substantial burden on an inmate's practice 
of religion, but the Ninth Circuit disagreed and also remanded 
to find whether a ban on group worship was the least 
restrictive means under the RLU--I hate acronyms--Religious 
Land Use and Institutionalized Persons Act.
    Do you agree with the Ninth Circuit's reasoning?
    Judge Drozd. Senator, of course, I was reversed in--my 
finding and recommendation was adopted and I was reversed.
    Senator Tillis. I know going into it you did not agree with 
them.
    Judge Drozd. I was reversed in that instance and, of 
course, I am bound by the decisions of the Ninth Circuit and 
would apply the holding in Greene and all future cases--and 
have and do.
    Senator Tillis. Where would you have disagreed on the 
reasoning?
    Judge Drozd. Senator, in Greene, I will say this. My 
recollection of that case is that the pro se plaintiff's 
pleadings were relatively challenging to characterize and to 
decipher, and that is quite often the case. I did my best to 
characterize what I believed to be the arguments and when the 
case went up on appeal, the Court of Appeals was able to 
discern a somewhat different argument, I felt, than what I 
believed that I had been presented with at the time.
    I am bound by their determination and would follow it. 
Beyond that, I have no other thoughts.
    Senator Tillis. Thank you.
    Ms. Hall, in your questionnaire, you stated that you worked 
on a pro bono death penalty case early in your career. Can you 
describe the work you did on that case?
    Ms. Hall. Thank you for the question, Senator. My role on 
that case involved an argument with regard to jury selection 
and the argument specifically went to the ineffective 
assistance of counsel in the jury selection, as well as the 
improper conduct of the prosecutor in that case. And in that 
role, I was an advocate advocating on behalf of my client.
    Senator Tillis. And could you give me an idea of your views 
on the constitutionality of the death penalty?
    Ms. Hall. I believe that the constitutionality of the death 
penalty is well settled and it is deemed constitutional.
    Senator Tillis. And if confirmed, would you be able to 
impose the death penalty on a criminal defendant, if required 
by law?
    Ms. Hall. Yes, I would.
    Senator Tillis. Thank you.
    Mr. Vilardo, I think throughout your career you have had 
some involvement with supporting members of political parties 
as an advisor, donor or fundraiser. There is, of course, 
nothing wrong with that.
    This said, should you be confirmed, your political history 
might concern some litigants who appear before you. So what 
assurances can you give this Committee, if confirmed, your 
decisions will be grounded in legal precedent and the text of 
the law rather than any political ideology?
    Mr. Vilardo. Thank you for that question, Senator. I really 
have been involved in politics precious little in Western New 
York. It has usually been when a friend has asked me to get 
involved.
    I am proud to say that I have support from both sides of 
the aisle in Western New York and the Republican support is 
every bit as strong as the Democratic support. And I can assure 
you that once confirmed, if I am fortunate enough to be 
confirmed, lifetime tenure means that you owe nothing to anyone 
and I would owe no debts, I would follow the law, I would 
follow the rule of law, I would follow the precedent from 
controlling jurisdictions by which I am bound and apply the law 
as dispassionately as possible.
    Senator Tillis. Thank you. And, Judge Donnelly, from your 
questionnaire, it appears that you have limited experience with 
civil matters either in practice or as a judge.
    If confirmed as a Federal district court judge, you will be 
presiding over both civil and criminal matters. What have you 
done or will you do to prepare yourself for that side of the 
law?
    Judge Donnelly. Thank you for that question, Senator 
Tillis. In my 25 years as an Assistant District Attorney and in 
my 6 years as a State court judge, I have been lucky to have 
been challenged by very complicated cases and have been 
required to get up to speed quickly on issues that I was not 
previously familiar with, such as complex securities fraud, 
white-collar cases, and violent crime, as well.
    With respect to getting up to speed on civil matters, I am 
committed to hitting the ground running. I plan to take 
advantage of all of the resources that are offered by the 
Federal Judicial Center, as well as consulting with my 
colleagues on the Federal bench, and I look forward to that 
challenge.
    Senator Tillis. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, and 
congratulations on your meteoric rise.
    [Laughter.]
    Senator Tillis. Say that again, my mom is listening.
    [Laughter.]
    Senator Franken. Mrs. Tillis, congratulations on having a 
son who is Chairman this early in his Senate career.
    You are welcome.
    [Laughter.]
    Senator Franken. I do not think we have had this much 
family and friends here at a hearing. So congratulations to all 
of you for having a lot of friends.
    [Laughter.]
    Senator Franken. Ms. Hall, in addition to your considerable 
experience in civil litigation and commercial law, your 
background also reelects a commitment to public service.
    Former Mayor Bloomberg appointed you to serve on the New 
York City Taxi and Limousine Commission, for example. But one 
experience in particular caught my eye, which is your service 
on the New York State Joint Commission on Public Ethics, which 
is tasked with ensuring compliance with New York State ethics 
and lobbying laws.
    Can you tell us how your experience on that commission, 
where you participated in confidential hearings and considered 
sensitive information, will influence your work as a judge?
    Ms. Hall. Thank you, Senator. I believe that my work on the 
New York State Joint Commission on Public Ethics, as well as my 
public service on the Taxi and Limousine Commission and my 
service in the United States Air Force, has helped me develop 
the temperament that I think is important and necessary for a 
district court judge.
    In particular, I believe that I had to demonstrate 
fairness, integrity, thoughtfulness, and hard work in my 
service on both of the commissions, as well as my time in the 
United States Air Force, and I believe that I would take that 
temperament, if given the opportunity, in my service on the 
Eastern District of New York.
    Senator Franken. So I take it that you think that fairness, 
integrity, thoughtfulness and hard work are good qualities to 
have in a judge.
    Ms. Hall. Yes, I do.
    Senator Franken. I was trying to trick you.
    [Laughter.]
    Senator Franken. Mr. Vilardo, I would like to find out more 
about your experience as it relates to judging. My 
understanding is that you clerked for Judge Irving Goldberg on 
the Fifth Circuit Court of Appeals.
    Mr. Vilardo. Yes, sir.
    Senator Franken. What did that perspective teach you about 
sitting behind the bench and weighing the arguments of two 
sides equally? What other experiences put you in a position of 
arbiter rather than advocate?
    Mr. Vilardo. Thank you for that question, Senator. Yes. The 
experience clerking for Judge Goldberg was a fabulous 
experience. It taught me about fairness and impartiality. It 
taught me about waiting and listening to everything that the 
litigants had to say and making a decision afterwards.
    It taught me about making decisions, too. It is so 
important to make decisions quickly, not so quickly that you 
have not given consideration to all the arguments, but quickly 
enough that you move cases along, because as Senator Schumer 
said earlier, there is quite a backlog in the court. So I was 
taught that by my clerkship experience.
    I have also been fortunate enough to have served as a 
hearing officer and as an arbitrator in a number of cases and 
that has taught me the perspective of not being an advocate, of 
looking down the middle and being fair to both sides, and, 
again, not making up your mind until everybody has said 
everything that they had to say, and then deciding.
    Thank you.
    Senator Franken. Thank you. Judge Donnelly, as the Chair 
said, you have a lot of experience in criminal cases, not just 
in your current role as judge, but in your career as a 
prosecutor. But nonetheless, I would imagine that sentencing 
convicted defendants must be one of the most difficult jobs 
that you face as a judge.
    Could you talk about the approach you take to sentencing 
and how that has been informed by your time as a prosecutor 
and, looking forward, how you would balance the need for 
sentencing with the need for rehabilitation in particular 
cases?
    Judge Donnelly. Thank you for that question, Senator 
Franken. Yes, you are correct that imposing sentence in a 
criminal case is among the most difficult parts--difficult 
tasks that a judge faces and the factors the judge is obligated 
to consider when determining the sentence to impose includes 
many factors, the severity of the crime, the effect on the 
community where I am currently sitting in Manhattan, the effect 
on the particular victim, and the defendant's background, as 
well.
    The cases that I have been presiding over most recently 
often involve devastating crimes to our communities, involving 
gang violence and murders, and the sentences are necessarily 
heavy.
    But frequently in our courts we see very young defendants 
and that is the place where I believe that our judicial system 
has the opportunity to perhaps turn someone around.
    In New York, you have the opportunity of affording a 
defendant youthful offender treatment, which I have done on 
many occasions. It is certainly a risk to the--that a judge 
takes when you do that, but it is certainly one of the tools 
that you have to perhaps save someone from what is bound to be 
a life of crime if they are not turned around.
    Senator Franken. Thank you very much. Sorry, I did not get 
to you, Judge, but----
    Senator Klobuchar. I will deal with him.
    Senator Franken [continuing]. Senator Klobuchar--I do not 
envy you.
    [Laughter.]
    Senator Franken. Thank you, Mr. Chairman.
    Senator Tillis. Senator Klobuchar, would you mind--we have 
no Republican Members present now--if I maybe ask just a couple 
more questions before you proceed?
    Senator Klobuchar. That is fine.
    Senator Tillis. Thank you.
    Judge Drozd, when you were a defense attorney, you were 
quoted in an article saying--I believe this is the correct 
quote--``Now the judge is almost irrelevant. You can bargain 
around the judge. You almost have to. When drug defendants 
plead guilty in Federal court, prosecutors usually drop some of 
the counts charged in an indictment, a move that frequently 
lowers the maximum possible sentence. In some cases, they drop 
all counts and substitute a charge carrying a lesser 
sentence.''
    Does that accurately reflect your opinion and do you 
believe there is any value in mandatory minimums? And if 
confirmed, will you apply the mandatory minium sentences?
    Judge Drozd. Let me start with the end of the question 
first, Senator. I most definitely will apply all applicable 
mandatory minimum sentences where called upon by the law.
    In terms of that quote in that newspaper article from 
probably 20-some years ago, I was speaking as an advocate. That 
was my job at the time. And I certainly understand the 
difference between my job at the time and the job that I have 
served for the last 18 years as a United States magistrate 
judge and I think my record shows that.
    But I think actually what I was addressing in those 
comments, in large part, had to do with application of what was 
then the brand new United States sentencing guidelines; a 
little bit less on mandatory minimums, although to an extent it 
was.
    And my comment was meant to just point out that charge 
bargaining at the outset was affecting judicial discretion in 
terms of addressing an appropriate sentence in an entire case 
and that the discretion had, at that point, seemed to have been 
moved more into the hands of the Assistant United States 
Attorney who is electing what charges to bring, then being left 
to the judge at the end of the case when we knew what the 
result was going to be, and I expressed some concern about 
that.
    Senator Tillis. Ms. Hall, do you believe a judge's 
background has an impact on their judicial decisionmaking and 
how will your background inform decisions that you will make as 
a judge?
    Ms. Hall. Thank you for the question, Senator. I believe 
that a variety of experiences that we all have will inform the 
viewpoint with which or the lens with which we view the world.
    I do not believe, however, that my background will have any 
direct impact on any determination that I make, if I were 
fortunate enough to be confirmed as a judge.
    Instead, what would guide me as a judge would be the rule 
of law and I pledge today that if I have the opportunity to be 
confirmed, that I would adhere to the rule of law.
    Senator Tillis. Thank you, Ms. Hall.
    Judge Donnelly, can you identify any mistakes you made 
early in your judicial career that will help you as you 
transition into the Federal judgeship?
    Judge Donnelly. Well, the transition from advocate to a 
judge is definitely a learning curve and I have not catalogued 
the mistakes that I have made. I am sure they are--I am sure 
they exist.
    But my judicial philosophy in my 6 years on the New York 
Supreme Court has been one of a fidelity to the rule of law, a 
respect for the people who appear before me, according every 
witness, litigant, juror dignity, making sure that my rulings 
are transparent so that the reasoning is clear, and a work 
ethic which involves a thorough knowledge of the applicable law 
and the factual record, and I believe that adherence to that 
philosophy minimizes the mistakes that a judge is apt to make.
    Senator Tillis. Thank you, Judge Donnelly.
    Finally, Mr. Vilardo, you have represented numerous targets 
or witnesses in False Claims Act investigations. While 
attorneys must diligently and zealously represent their 
clients, your practice involving the False Claims Act has been 
focused on defending against whistleblowers' allegations.
    If confirmed, how will you handle such actions if they are 
brought before your bench?
    Mr. Vilardo. Thank you, Mr. Chairman, for that question. I 
will handle them the same way I handle all cases brought before 
me; that is, fairly and impartially by applying the rule of 
law.
    District judges are not elected by anyone. They do not sit 
on a panel with other judges who can hold them in check. They 
do not have en banc courts to look at what they do. They decide 
cases based on what the law is, not on what the law should be, 
not on what they think the law ought to be or what they wish 
the law should be.
    So handling whistleblower cases would be just like handling 
any other case; that is, applying the rule of law, applying 
precedent, and doing so fairly and impartially.
    Senator Tillis. Thank you, Mr. Vilardo.
    Senator Klobuchar, thank you for your indulgence.
    Senator Klobuchar. Thank you.
    I will start with you, as I promised Senator Franken, Judge 
Drozd. I actually nominated--my first Federal judge here that I 
recommended to the President was also a magistrate. So I know 
how important that job is and I also know that you are the 
chief magistrate in one of the busiest districts in the 
country.
    So my question is just more about how you see the judicial 
system right now with your vast experience, what you see as 
some of the biggest challenges facing our judicial system.
    Judge Drozd. Well, Senator, thank you for that question. 
Maybe a little bit more of a parochial focus.
    Senator Klobuchar. That is allowed.
    Judge Drozd. Since our nose stays close to the grindstone 
in the Eastern District of California. We really are in a 
crisis situation. We have had one of the heaviest weighted 
caseloads in the country per active judge for over a decade 
now.
    That leaves us with an average pending caseload per active 
district court judge of--my understanding is over 1,300 cases 
pending per active district court judge right now. That has 
tremendous impact on our ability to deliver justice within our 
district.
    We have done the best we can with the assistance of the 
administrative offices and resources that we have been provided 
and we are doing pretty well. We are the second most productive 
district court in terms of dispositions per year in the country 
and we have been in the top five, I think, for most of the last 
decade, as well.
    So we are doing well, but that--we are performing well in 
terms of efficiency. I do not think we can perform any more 
efficiently. We have maxed out on that score. And the situation 
can only get better with additional resources.
    So for us, in our district, that is the biggest challenge 
and the biggest problem with our ability to deliver justice.
    Senator Klobuchar. Thank you. And I know that actually 
Chairman Grassley has been trying to make some changes to get 
the judges where the work is and I have actually joined in some 
of those efforts with Senator Feinstein. Minnesota has actually 
had one of the heavier caseloads in past years. I do not know 
where we are right now. But when we were trying to get 
temporary judges in place or other things, looking at it that 
way. So thank you for your point.
    Judge Donnelly, thank you for your service. I know that you 
actually, also, in your very extensive background here, you 
were chief of the Family Violence and Child Abuse Bureau in the 
New York District Attorney's Office and you saw firsthand the 
challenges we face in this country with the scourge of domestic 
violence and child abuse.
    I worked on those as a prosecutor for 8 years, those 
issues. I know your docket will be different now, but how does 
that experience inform your future as a Federal judge, if and 
when, and we hope you will be, confirmed?
    Judge Donnelly. Thank you for that question, Senator 
Klobuchar. You are right that these are among the most 
difficult cases to prosecute. With domestic violence victims 
and with child abuse victims, challenges in identifying the 
victims, many of whom are financially dependent on their 
abusers, challenges with very young victims, and many steps 
have been taken.
    It has been some time since I have been active in that 
role, but the use of child advocacy centers, where a child 
abuse victim gets all services at one location without the need 
for multiple interviews, and having the opportunity to work 
with those children was one of the most meaningful and 
affecting experiences of my life, to see children who have 
suffered so much to have been so resilient and so able to 
survive unimaginable situations.
    I hope that it will make me a better judge. I feel that it 
has in my 6 years on the supreme court. I am very lucky to have 
had that chance. I thank you for the question.
    Senator Klobuchar. Mr. Vilardo, I see that you served on 
the Harvard Law Review and Chief Justice Roberts was the 
editor. So, who do you think is the better editor of the 
Harvard Law Review, President Obama or--I am kidding, do not go 
there.
    [Laughter.]
    Senator Klobuchar. Do not answer that question.
    Senator Tillis. I will provide you extra time, Senator 
Klobuchar.
    [Laughter.]
    Senator Klobuchar. So I was just thinking of your 
experience as a civil litigator and a lot of times people that 
go into the Federal judgeships, but sometimes they also are 
criminal prosecutors, sometimes they are defenders. But what do 
you think you will bring to the table here as a civil 
litigator? I think we know a lot of the cases are civil and not 
everyone knows that.
    Mr. Vilardo. Sure. My experience actually is civil and 
criminal. I have done a good deal of criminal work, as well. 
But the broad experience that I have had, in addition, as an 
advocate, as an arbitrator and a mediator and a law clerk, I 
think position me well to do a good job as a district job, at 
least, I hope so.
    Senator Klobuchar. Very good. I am not going to bring up 
the Vikings-Buffalo Bills game. I do not know if you remember 
this, when your fans threw snowballs at our players during a 
playoff game.
    Mr. Vilardo. I apologize.
    [Laughter.]
    Mr. Vilardo. On behalf of the people of Western New York, I 
apologize.
    Senator Klobuchar. Thank you, thank you. I do not think I 
will hold it against you, but it did hit Chuck Foreman in the 
eye, but that is okay. It was a long, long time ago. But we 
remember those games when we were quite the contenders for the 
Super Bowl.
    My last question of you, Ms. Hall, is just--I would ask it 
of everyone, but I think we have a good panel here that have 
given some good answers.
    But I think one of the challenges for all judges is just 
you have litigants that come before you, some are rich, some 
are poor, some can afford really good lawyers and some cannot. 
And how will you assure them that you will treat them fairly?
    Ms. Hall. Thank you for the question, Senator. I believe 
that in my private practice, as well as in my service publicly 
on the Joint Commission for Public Ethics and the Taxi and 
Limousine Commission, that I have developed a reputation of 
treating people fairly at the Joint Commission on Public Ethics 
and the TLC, specifically those who appeared before the 
commission.
    I also believe that the way in which I would conduct my 
courtroom, if given the opportunity, would, I hope, let the 
litigants know that they are heard, that their cases have been 
given the adequate thoughtfulness and deliberation. And I also 
believe that if I adhere to the rule of law and apply the law 
to the facts in the case unbiasedly, that that should give 
litigants the assurance that they need that they were treated 
fairly.
    Senator Klobuchar. Thank you very much. And thank you, Mr. 
Chairman. I know I went a little over, but thank you for 
running a good hearing here.
    Senator Tillis. Thank you. That discussion about the Bills 
games reminds me of a Patriots game that I have yet to get an 
apology for. That was the snowplow game back in the 1980s. So I 
share your concerns.
    But I want to thank the panelists. Again, I want to 
congratulate you for being before us and having the honor to be 
nominated. You and your families should be very proud. We look 
forward.
    We are going to hold the hearing record open for 1 week for 
information to be submitted to the record. There may be some 
follow-up questions. But we appreciate your time today and I 
personally wish you the very best of luck.
    Thank you.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

     Questions Submitted to Hon. Ann Donnelly, LaShann DeArcy Hall,
               And Lawrence J. Vilardo by Senator Vitter

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	

      Questions Submitted to Hon. Dale A. Drozd by Senator Vitter

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
